<html>
<title> - NOMINATIONS OF JEFFREY GERRISH, GREGORY DOUD, AND JASON KEARNS</title>
<body><pre>[Senate Hearing 115-386]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-386 
 
                    NOMINATIONS OF JEFFREY GERRISH, 
                     GREGORY DOUD, AND JASON KEARNS
=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                 on the

                             NOMINATIONS OF

 JEFFREY GERRISH, TO BE DEPUTY UNITED STATES TRADE REPRESENTATIVE FOR 
ASIA, EUROPE, THE MIDDLE EAST, AND INDUSTRIAL COMPETITIVENESS; GREGORY 
DOUD, TO BE CHIEF AGRICULTURAL NEGOTIATOR, OFFICE OF THE UNITED STATES 
 TRADE REPRESENTATIVE; AND JASON KEARNS, TO BE A MEMBER OF THE UNITED 
                 STATES INTERNATIONAL TRADE COMMISSION

                               __________

                            OCTOBER 5, 2017

                               __________

                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

            Printed for the use of the Committee on Finance
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-958-PDF                WASHINGTON : 2018                 

















                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana

                     A. Jay Khosla, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)

























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                        ADMINISTRATION NOMINEES

Gerrish, Jeffrey, nominated to be Deputy United States Trade 
  Representative for Asia, Europe, the Middle East, and 
  Industrial Competitiveness, with the rank of Ambassador, 
  Executive Office of the President, Washington, DC..............     6
Doud, Gregory, nominated to be Chief Agricultural Negotiator, 
  Office of the United States Trade Representative, with the rank 
  of Ambassador, Executive Office of the President, Washington, 
  DC.............................................................     8
Kearns, Jason, nominated to be a member of the United States 
  International Trade Commission, Washington, DC.................     9

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Doud, Gregory:
    Testimony....................................................     8
    Prepared statement...........................................    25
    Biographical information.....................................    26
    Responses to questions from committee members................    31
Gerrish, Jeffrey:
    Testimony....................................................     6
    Prepared statement...........................................    37
    Biographical information.....................................    38
    Responses to questions from committee members................    43
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    52
Kearns, Jason:
    Testimony....................................................     9
    Prepared statement...........................................    53
    Biographical information.....................................    54
    Responses to questions from committee members................    58
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................    60

                                 (iii)













                NOMINATIONS OF JEFFREY GERRISH, TO BE
                       DEPUTY UNITED STATES TRADE
                 REPRESENTATIVE FOR ASIA, EUROPE, THE
                      MIDDLE EAST, AND INDUSTRIAL
                   COMPETITIVENESS, WITH THE RANK OF
                  AMBASSADOR, EXECUTIVE OFFICE OF THE
                  PRESIDENT; GREGORY DOUD, TO BE CHIEF
                   AGRICULTURAL NEGOTIATOR, OFFICE OF
                        THE UNITED STATES TRADE
                    REPRESENTATIVE, WITH THE RANK OF
                  AMBASSADOR, EXECUTIVE OFFICE OF THE
                  PRESIDENT; AND JASON KEARNS, TO BE A
                      MEMBER OF THE UNITED STATES
                     INTERNATIONAL TRADE COMMISSION

                              ----------                              


                       THURSDAY, OCTOBER 5, 2017

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:38 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Roberts, Thune, Wyden, Stabenow, 
Cantwell, Menendez, Cardin, Bennet, and Casey.
    Also present: Republican Staff: Christopher Armstrong, 
Chief Oversight Counsel; Rory Heslington, Professional Staff 
Member; Shane Warren, Chief International Trade Counsel; 
Nicholas Wyatt, Tax and Nominations Staff Member; and Andrew 
Rollo, Detailee. Democratic Staff: Joshua Sheinkman, Staff 
Director; Michael Evans, General Counsel; Elissa Alben, Senior 
Trade Counsel; Ian Nicholson, Investigator; Greta Peisch, 
Senior Trade Counsel; and Jayme White, Chief Advisor for 
International Competitiveness and Innovation.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order. I want to 
welcome everybody to today's hearing on pending nominations.
    Today we will have the opportunity to hear testimony from 
nominees to three key trade policy positions. We will hear from 
Mr. Jeffrey Gerrish, who has been nominated to serve as Deputy 
U.S. Trade Representative. We will also hear from Mr. Gregory 
Doud, nominated to be Chief Agricultural Negotiator at the 
Office of USTR. Last, but certainly not least, we will hear 
from Mr. Jason Kearns, who has been tapped to serve as a member 
of the International Trade Commission.
    We welcome you, gentlemen, to the Senate Finance Committee. 
I am sorry we are in such a bind here. I am supposed to be down 
in Judiciary at the same time. There is a big uproar down 
there, so I will do the best I can. But congratulations on your 
nominations, and thank you for your willingness to serve in 
these capacities.
    When you look over the respective resumes of each of these 
nominees, it is clear that the President has selected 
individuals who are well-qualified and well-prepared to serve 
in these important posts.
    That is a good thing. There is quite a bit going on in the 
trade world at the moment. The Trump administration has a 
number of ambitious goals, and Congress has a key role to play 
with all of them. Among other things, we need to make sure that 
the administration is well-staffed, and I hope we will be able 
to take some steps toward that end with the advancement of 
these nominees.
    I prefer to let the nominees describe their backgrounds and 
qualifications on their own. However, I do want to address an 
issue that has been raised with respect to Mr. Gerrish's 
nomination. Members of the committee already have all of the 
facts, and they are pretty straightforward.
    Mr. Gerrish was a resident of Virginia until June 2016, at 
which time he moved to Maryland. However, in November 2016, Mr. 
Gerrish voted in the general election in the Commonwealth of 
Virginia. Mr. Gerrish voted where he should not have. It is 
that simple.
    He has been open with the committee about this matter 
during the vetting process and has cooperated with the 
committee staff 's efforts to understand exactly what happened. 
I am sure that Mr. Gerrish will be willing to respond to 
questions about this matter today.
    My hope is that at the end of today's hearing, committee 
members will have enough information to judge each nominee on 
the basis of their experience, knowledge, and qualifications 
for the positions to which they have been nominated.
    Now, with that out of the way, I want to once again thank 
the nominees for being here today. I look forward to hearing 
your statements and hopefully to working with you in the 
future.
    I may have to leave temporarily for the Judiciary Committee 
as well, which is just down the hall, but we will see.
    Right now, I will turn to my distinguished friend and 
colleague, Senator Wyden, for his opening remarks.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. And you 
are right: this is going to be a very hectic morning, even by 
Senate standards, trying to get to everything.
    The chairman has noted Mr. Jeffrey Gerrish has been 
nominated to be the Deputy U.S. Trade Representative; Mr. 
Gregory Doud to be Chief Agricultural Negotiator at the U.S. 
Trade Representative; and Mr. Jason Kearns to be a member of 
the United States International Trade Commission, a place where 
I am so frequently they are thinking about getting me a mail 
slot or something like that.
    I want to start on this matter of Mr. Gerrish, because I 
think we really want to unpack this and understand what 
happened. I understand the facts. The chairman touched on this.
    Mr. Gerrish moved residences from Virginia to Maryland in 
June of last year. Though he no longer lived in Virginia, he 
voted there in the 2016 general election. Virginia provides a 
30-day grace period to former residents. This was way outside 
what the law allowed.
    It is hard to understand how an attorney as accomplished 
and distinguished as Mr. Gerrish can walk out of his house in 
Maryland, travel a ways to Virginia, and cast a vote in that 
State without thinking there just may be an issue. You cannot 
flash a Maryland driver's license when a Virginia polling place 
worker asks you where you live. So this seems to me to be a 
serious error in judgment on a part of the law that is pretty 
unambiguous.
    As of now, I think it is especially noteworthy that the 
Republican and the Democratic member of the Fairfax County 
Electoral Board have called for an investigation by the 
prosecutor in this case. So I think this is an important 
matter, and we are going to have to, even with the hectic 
morning, get at this.
    There is another reason, frankly, why I think this issue is 
so important. This administration has fabricated out of thin 
air a crisis of widespread voter fraud in this country without 
one shred of evidence to back up their claims. Now, set aside 
the irony of someone who won the election talking about how it 
was tainted by fraud. Just kind of setting that one aside, 
because that is kind of a head-scratcher--usually, the loser 
says that there is a problem with voter fraud--this is a 
particularly troubling matter, because we now have a so-called 
Commission on Election Integrity, which looks more to me like 
an attempt to justify taking away the vote from millions of 
American citizens, particularly those who are black and Latino.
    Bottom line: the administration makes illegal voting out to 
be widespread and far-reaching, without any documentation. It 
is, oh my goodness, this is happening in an extraordinary 
number of cases, almost an existential threat to the country, 
and here we are going to be dealing with a nomination where you 
have the Republican and Democratic member of the local 
electoral board raising questions about whether that was an 
illegal vote in a highly contested State.
    So this is important to get at, and we are determined to do 
that.
    Now, turning to the critical trade challenges that we face 
today, I think it is fair to say the administration, after all 
the talk, after all the ballyhoo, surely has disappointed.
    In April, the President ordered the launch of 
investigations into steel and aluminum imports. He said it was 
a historic day, but so far it has been a historic blunder. 
Failing to follow through on this tough talk has led to steel 
imports jumping by 21 percent. You see the same pattern in 
softwood lumber after the administration delayed imposing 
duties on unfairly traded imports from Canada.
    This is having a real impact on our country and on what I 
call red, white, and blue jobs. By the President's own 
preferred metric, the trade deficit, the U.S. is worse off this 
year. The deficit rose by about $20 billion in the first 7 
months of 2017.
    The administration has also produced disappointing results 
in its engagement with China. Although administration officials 
touted a limited deal with China in late spring, labeling 
something a good deal is very different from actually securing 
a good deal. Our country has serious and far-reaching trade 
issues with China, including with respect to cloud computing, 
and what is needed is not more talk, but a concrete strategy.
    I also have concerns about where the NAFTA negotiations are 
going. As I am sure Mr. Doud can attest, trade is a complicated 
deal. Entering into trade agreements can create winners and 
losers, but so does withdrawing from them or fundamentally 
changing their nature. There are lots of manufacturing and farm 
jobs that depend on existing relationships, and the goal should 
be to improve the relationships for everybody. And I think it 
would be a big mistake to leave whole sectors of the economy 
behind. I worry that this is a trade policy built on hostage-
taking and headlines, not the hard work of getting trade done 
right through tough enforcement and a comprehensive strategy to 
open up markets for the American brand.
    The chairman and I and our colleagues worked very hard in 
the last Congress to put together a tough trade enforcement 
agenda, and as he, I know, is aware, that was tough, bringing 
together the Senate Democrats and Republicans on it. But under 
your leadership, Mr. Chairman, we got it done. We had an 
agreement for tough enforcement and to really focus on opening 
up markets. The reality is that this administration really has 
not done what is necessary to follow up on that bipartisan 
work.
    Finally, we are glad to see Mr. Jason Kearns, nominated to 
serve on the International Trade Commission, where he probably 
will see me several times a week at the rate things are going.
    I have had the opportunity to work with Mr. Kearns on the 
Hill. He is very much aware of the ins and outs of trade 
policy. I am especially pleased because he has always looked at 
these issues in kind of the way the chairman and I have, and 
that is to be driven by the facts and to be driven by the 
evidence and not some prepackaged theory of what is politically 
right and politically correct.
    So I am glad that we are going to hear from him, and I am 
confident that he is committed to policies that are going to 
pay off for our workers.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Let me just say that I would like to extend a 
warm welcome to each of our nominees today. I appreciate you 
all being here.
    Before I introduce each of you in the order that you will 
provide your testimony, let me just say that I am very pleased 
to have you all here. Let me first recognize your friends and 
families in the audience. We would welcome each of you to 
introduce them when you open with your own testimony.
    First, we will hear from Mr. Jeffrey Gerrish, who has been 
nominated to serve as Deputy U.S. Trade Representative for 
Asia, Europe, the Middle East, and for Industrial 
Competitiveness, with the rank of Ambassador.
    Mr. Gerrish is currently working as the head of the 
International Trade Group at Skadden, where he started working 
back in 1998. Mr. Gerrish has spent much of his legal career 
focused on trade, practicing before the Department of Commerce, 
the ITC, U.S. courts, and NAFTA and WTO panels. That is a lot 
of experience.
    Mr. Gerrish received his undergraduate degree from the 
State University of New York and later graduated from Duke 
University Law School.
    Next will be Mr. Gregory Doud, who has been nominated to 
serve as the Chief Agricultural Negotiator in the Office of the 
U.S. Trade Representative, with the rank of Ambassador.
    Mr. Doud will be introduced by our colleague, Senator 
Roberts, and we are happy to have that occur.
    Finally, we will hear from Mr. Jason Kearns, who will be 
introduced by our good friend, colleague, and fellow committee 
member, Senator Bennet. We are happy to have Senator Bennet do 
that.
    Senator Bennet, please proceed with your introduction. Is 
he here?
    We will start with Senator Roberts then.
    Senator Roberts?
    Senator Roberts. Thank you, Mr. Chairman.
    It is my understanding I have the distinct honor of 
introducing Mr. Greg Doud. Is that correct?
    The Chairman. That is correct.
    Senator Roberts. Thank you, sir.
    Greg is the nominee to be our Chief Ag Negotiator. Greg is 
joined by his wife, Pennye, their two children, and his parents 
at this hearing today.
    Mr. Chairman, I would like for them to stand and be 
recognized. Thank you. [Applause.]
    I want this committee and everybody present to know that 
Greg is a Kansan, born and raised. He is tied to the land, 
playing a large role in operating his family farm near Mankato, 
KS. He understands firsthand that for any farmer or rancher to 
be successful in today's global economy, the United States must 
sell not only what we make, but what we grow.
    Greg's professional background in agricultural policy has 
spanned over 20 years. An agriculture economist by education, 
Greg began his career working in agricultural commodity 
consulting and later working for the commodity trade 
associations. During his time at the National Cattlemen's Beef 
Association, Greg chaired the USDA /USTR Animal and Animal 
Products Agricultural Trade Advisory Committee.
    I want to emphasize Greg's experience as a trade policy 
advisor for the Senate Agriculture Committee, during my time as 
the ranking member. I often say, as a Senator, you are only as 
good as your staff. I can honestly say that, when in the middle 
of drafting a farm bill, I could not have asked for a smarter, 
more talented, and yes, even stubborn, trade advisor.
    Throughout the confirmation process, Greg and I have had 
multiple conversations about agriculture trade. We have 
discussed his priorities for expanding markets for agriculture 
commodities, especially engaging with the Pacific Rim 
countries. More importantly, we share the view that the 
agriculture industry needs an administration that not only 
focuses on expanding markets, but also one that will continue 
to be a reliable supplier to our current trading partners.
    That has been a U.S. trade policy hallmark, and I know that 
Greg Doud will be a strong advocate. The agriculture industry 
is in need of certainty, especially during the rough patch we 
are currently experiencing. And, Greg, I know that you will be 
the voice of farmers, ranchers, and growers, and I certainly 
look forward to working with you and taking on this challenge.
    Mr. Chairman, thank you for this privilege.
    The Chairman. Thank you, Senator, for your kind remarks.
    Let us begin. Mr. Gerrish, we will begin with you.

  STATEMENT OF JEFFREY GERRISH, NOMINATED TO BE DEPUTY UNITED 
STATES TRADE REPRESENTATIVE FOR ASIA, EUROPE, THE MIDDLE EAST, 
 AND INDUSTRIAL COMPETITIVENESS, WITH THE RANK OF AMBASSADOR, 
       EXECUTIVE OFFICE OF THE PRESIDENT, WASHINGTON, DC

    Mr. Gerrish. Chairman Hatch, Ranking Member Wyden, and 
distinguished members of the Senate Finance Committee, it is a 
great honor for me to appear before you today.
    I feel both privileged and humbled to have been recommended 
by Ambassador Lighthizer and nominated by President Trump to 
serve as Deputy United States Trade Representative.
    I would like to take a moment first to thank my wife Kelly 
and our three children, Jacob, Kate, and Grace. They have been 
a constant source of inspiration, strength, and support for me 
throughout my career, and I would not be where I am today 
without them. I would also like to thank the incredible mentors 
and role models I have had over the years, including Ambassador 
Lighthizer and my friend and former partner, John Mangan, who 
is here with us today. I have been blessed with the opportunity 
to work with and learn from many immensely talented individuals 
and am truly grateful for that.
    In addition, I would like to express my thanks to the 
members and staff whom I have been able to visit with over the 
past couple of months. If confirmed, I look forward to working 
with you on the critical trade issues facing our great country.
    To give you a little background about me, I grew up in a 
city by the name of Troy in upstate New York. Troy used to be a 
manufacturing town, with steel and then textiles the primary 
goods produced there. The manufacturing is gone now, and the 
city has faced difficult times, but the people of Troy remain 
as fundamentally decent, down to earth, and hardworking as any 
you will find. I was taught the value of a strong work ethic 
from an early age by my parents and grandparents and others in 
my hometown, and that virtue has remained with me and served me 
well in every single thing that I have done.
    For almost 20 years, I have practiced international trade 
law. Over that time, I have worked extensively on behalf of 
U.S. manufacturers in seeking to combat unfair trade in this 
market, the massive subsidies and trade-distorting industrial 
policies employed by countries around the world, and the 
challenge of global overcapacity facing a number of industries. 
I have fought for strong enforcement of our trade laws and to 
preserve U.S. policies at the World Trade Organization and 
other international bodies. My work has also entailed assisting 
American companies that have been improperly denied access to 
other markets around the world.
    Through my work, I know firsthand the problems that unfair 
trade can cause, but also the opportunities that trade can 
present for U.S. companies. My experience has clearly 
demonstrated to me that we need a trade policy that puts 
America first. This does not mean closing ourselves off from 
the rest of the world. It simply means putting American 
manufacturers, workers, farmers, ranchers, and service 
providers first in everything we do in the trade arena.
    It means negotiating stronger and more effective trade 
agreements and ensuring that the trade agreements we have are 
properly enforced and applied in the manner originally 
intended. We must aggressively and effectively apply our trade 
laws to counteract unfair trade practices and work with like-
minded trading partners to defend the use of such trade laws 
and to address the enormous overcapacity problem plaguing our 
steel, aluminum, and other industries.
    For our creators and innovators, it means promoting greater 
intellectual property protection and enforcement among our 
trading partners. It is absolutely critical that we protect 
American companies' intellectual property, which is one of our 
greatest assets.
    If confirmed, I hope to work with this committee, others in 
Congress, those in the administration, and all interested 
parties to craft and implement a trade policy that increases 
trade and spurs economic growth, but does so in a way that 
promotes fair and reciprocal trade that benefits all segments 
of our economy.
    The trade issues confronting the United States are numerous 
and daunting, and I would welcome the opportunity to work with 
you in tackling them. If confirmed, I promise you that I will 
bring my strong international trade experience to bear and will 
work tirelessly to achieve the best possible results for your 
constituents and the country.
    Thank you for your consideration, and I would be happy to 
answer any questions.
    [The prepared statement of Mr. Gerrish appears in the 
appendix.]
    Senator Roberts [presiding]. Thank you, Mr. Gerrish.
    Mr. Doud, please proceed.

 STATEMENT OF GREGORY DOUD, NOMINATED TO BE CHIEF AGRICULTURAL 
 NEGOTIATOR, OFFICE OF THE U.S. TRADE REPRESENTATIVE, WITH THE 
    RANK OF AMBASSADOR, EXECUTIVE OFFICE OF THE PRESIDENT, 
                         WASHINGTON, DC

    Mr. Doud. Thank you, Senator. Chairman Hatch, Ranking 
Member Wyden, members of the Senate Finance Committee, thank 
you for welcoming me here today. I am honored to be considered 
by this committee as President Trump's nominee to be the Chief 
Agriculture Negotiator in the Office of the United States Trade 
Representative.
    I would first like to recognize my wife, Dr. Pennye Doud; 
our children, Abby and Aidan; my parents, Eldon and JoAnn Doud 
from Mankato, KS; and my in-laws, Major U.S. Army Retired 
Nelson Stammer, a Vietnam War veteran, and his wife Barbara. I 
am grateful for Pennye's willingness to allow me to serve our 
country and its farmers and ranchers in this capacity.
    Growing up on the farm in Kansas, I have vivid memories of 
the economic difficulties that followed the decision to embargo 
U.S. sales of wheat to the Soviet Union. After graduate school, 
I jumped at the opportunity to work for U.S. Wheat Associates, 
which immediately exposed me to the multitude and complexity of 
challenges that we face in selling our wheat overseas.
    As chief economist for the National Cattlemen's Beef 
Association, I spent each day for over 7 years coordinating 
industry efforts with USTR, USDA, and even our State Department 
as we rebuilt our beef exports virtually from scratch in the 
aftermath of the BSE cow that stole the Christmas of 2003.
    While in that role, I also served as a cleared advisor and 
later chairman of the USDA /USTR Animal and Animal Products 
Agriculture Advisory Committee. This was during an extremely 
active period when we had trade agreements with Australia, 
Bahrain, Colombia, the CAFTA, South Korea, Morocco, Panama, and 
Peru.
    America's farmers and ranchers understand that their future 
and their new wealth, as Thomas Jefferson would put it, depends 
on the ability to export the food and fiber they grow to the 95 
percent of the world's population that does not live in the 
United States. They also understand, as do I, that these 
efforts can take years to accomplish and require a unique 
combination of strategy and relationship building.
    I have spent the vast majority of my career involved in 
wheat, soybean, and beef export market development efforts, in 
addition to serving as senior professional staff on the Senate 
Agriculture Committee, responsible for trade matters. If 
confirmed, I would consider it an honor and privilege to join 
Ambassador Lighthizer and the team at USTR, which is dedicated 
to creating new wealth for U.S. agriculture.
    As I have discussed with Ambassador Lighthizer, when it 
comes to trade agreements, U.S. agriculture plays offense. Our 
Nation's farmers and ranchers grow world-class products and 
should be able to export to any market in the world and be 
competitive. If confirmed as Chief Agricultural Negotiator, I 
will work to reduce barriers to U.S. agriculture and secure 
greater market access for America's farmers and ranchers.
    One area where we need work is Japan. We are at a 
particularly critical juncture in terms of our competitiveness 
for U.S. meat exports into Japan. Failure to address this 
situation immediately does not bode well for our fiercely 
competitive and rapidly expanding production of beef, pork, and 
poultry. In fact, this is not only true for Japan, but for all 
of Southeast Asia as well.
    Keeping in mind that the evolution to more liberalized 
trade in agriculture products takes a great deal of patience, 
we must also get started today in planting new trees in market 
access, even though it may be quite some time before we are 
able to enjoy shade from these efforts. In this category, India 
certainly comes to mind as a place which, before long, could 
grow to be the most heavily populated nation on the planet.
    If confirmed, I look forward to working with Ambassador 
Lighthizer and the stellar team of professionals at USTR to 
expand markets for U.S. agriculture. I look forward to working 
with you, Chairman Hatch, Ranking Member Wyden, and the members 
of this committee, to drive a strategy consistent with the 
objectives of Trade Promotion Authority toward reality.
    Again, I thank the President for this opportunity, and the 
committee for considering my nomination. I am happy to answer 
any questions.
    [The prepared statement of Mr. Doud appears in the 
appendix.]
    Senator Wyden [presiding]. Thank you very much, Mr. Doud.
    Mr. Kearns?

  STATEMENT OF JASON KEARNS, NOMINATED TO BE A MEMBER OF THE 
  UNITED STATES INTERNATIONAL TRADE COMMISSION, WASHINGTON, DC

    Mr. Kearns. Thank you. Chairman Hatch, Ranking Member 
Wyden, members of the Finance Committee, I am honored to appear 
before you today as the President's nominee for the position of 
Commissioner on the U.S. International Trade Commission.
    I would like to introduce the family members who are with 
me here today. I would not be here without the love and 
constant support of my wife, Lindy Arnof Kearns, who manages 
the logistical mess of our busy lives, while adding levity to 
our home. When I complain the glass is half empty, she always 
reminds me that it is half full. I am also very proud of my 
three children: Eleanore, who is 14; Keevan, who is 12; and 
Sander, who is 9. They keep things in perspective for me.
    Senator Wyden. Whenever my kids come, the question is, did 
they come voluntarily, or were they required to? [Laughter.] 
But we will get into that at another time. Mr. Kearns, go 
ahead.
    Mr. Kearns. I was happy this did not happen over the summer 
when they were at summer camp, because it would be a different 
answer. But now they are at school.
    My mother, Betsy Starks, has taught me to stand up for my 
principles and to stick to them. And I am proud of my sister, 
Lauren Sulcove, who serves as First Assistant District Attorney 
in Franklin County, PA. Yesterday she accepted a new job as 
Deputy Attorney General for the State of Pennsylvania.
    I would like to thank all of my family, those who are 
living and those who have passed, for all of their support over 
the years. I also thank my mentors, colleagues, and friends for 
their help.
    I seek this position after serving the past 11 years as 
trade counsel to the House Committee on Ways and Means. I want 
to thank Ways and Means for that honor. I also want to express 
my appreciation to Representatives Levin and Rangel and Senator 
Wyden for first recommending my appointment as a Commissioner 
several years ago, and to Presidents Obama and Trump for 
nominating me.
    I am also grateful to Senate Minority Leader Schumer for 
his support, as well as the support I have received from this 
committee, including the chairman, the ranking member, and 
Senator Bennet, from my great home State of Colorado.
    The ITC administers the trade remedy laws or, as Senator 
Isakson so aptly put it in our meeting last week, it serves as 
an umpire, calling balls and strikes. The ITC also provides 
Congress and the executive branch with independent analysis and 
information on matters relating to tariffs and international 
trade; that is, the raw materials from which policymakers like 
you may craft and execute trade policy.
    In my view, the work of the ITC may be more important today 
than ever before, as trade has become a much larger part of our 
economy and as policymakers consider and debate major trade 
policy reforms.
    I believe my upbringing, education, and work experience 
have prepared me well for this role. I grew up in a farming 
town of 500 people in Colorado, where I learned to enjoy hard 
work, whether it was the midnight feedings of my 4H lambs or 
being the first kid at my high school in the mornings to work 
on my jump shot.
    In small towns, you learn to do your part and you learn to 
try to get along, and that is where I developed a deep respect 
for people who work with their hands for a living. Since moving 
away from that small town, I have learned about trade from a 
wide variety of perspectives over more than 20 years. I have 
counseled Democratic members of Congress, as well as Republican 
trade officials at USTR, including my former boss, Senator 
Portman.
    Before that, in private practice, I counseled businesses 
that petitioned the ITC for relief under the trade remedy laws, 
as well as businesses that opposed relief. I have counseled 
exporters, as well as importers. I have been honored to serve 
as an advocate for these clients.
    I now look forward to serving in a different role, not as 
an advocate, but as an impartial, independent, and objective 
decision-maker and source of information and analysis.
    If confirmed, I will administer the trade remedy laws 
fairly, objectively, and in accordance with congressional 
intent, and I will work with my fellow Commissioners to respond 
as fully and quickly as possible to congressional and 
administration requests, with the most reliable information and 
independent and insightful analysis possible.
    Thank you for your consideration.
    [The prepared statement of Mr. Kearns appears in the 
appendix.]
    Senator Wyden. Thank you very much.
    Senator Bennet would like to give you a post-statement 
introduction.
    Senator Bennet. Thank you, Mr. Chairman. This is highly 
unusual, but we are in the middle of three votes, if you can be 
in the middle of three votes. We are among three votes.
    But I really wanted to come, Mr. Chairman, to introduce, 
but now welcome Jason Kearns, nominee to serve as Commissioner 
on the U.S. International Trade Commission.
    I want to thank Jason for his prior service in the House of 
Representatives in the previous administration, and for his 
continued willingness to serve. I also want to thank his family 
for joining us today. Jason and his family may no longer live 
in Colorado, but we claim them as our own, and I know they 
often travel back to ski and spend time outdoors. In fact, I 
think we may have compared notes on the hike between Crested 
Butte and Aspen this summer.
    Few Americans know about the International Trade 
Commission, but it works to create fairness and a level playing 
field in our system of trade by enforcing our trade laws. The 
Commission protects our intellectual property rights and 
safeguards American industries from dumping and subsidies. 
Jason understands that well. It is not just because he studied 
at some of our Nation's top institutions. It is not just his 
extensive experience in trade enforcement and investment. It is 
because he understands how trade can affect small towns across 
America and the importance of enforcement for American workers.
    He knows that because he grew up in the small farming town 
of Keenesburg, about 40 miles northeast of Denver, in Colorado.
    Jason understands that without enforcement, rules are just 
words on a piece of paper. Throughout his career, Jason has 
demonstrated a clear commitment to enforcement and more 
generally to U.S. trade policies that allow American workers to 
compete fairly in the global economy.
    I thank Jason for his willingness to serve in this 
important role, and I commend him to this committee.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you very much, Senator Bennet.
    Now, on behalf of Chairman Hatch--and as we have indicated, 
this is really a very frenetic day even by Senate standards. 
The chairman would normally do this, but we have some 
obligatory questions that have to be asked of all nominees. So 
I am asking these on behalf of the chairman.
    First, to all three of you, is there anything that you are 
aware of in your background that might present a conflict of 
interest with the duties of the office to which you have been 
nominated? We need an answer from each of you.
    Mr. Gerrish?
    Mr. Gerrish. No, there is not, Senator.
    Senator Wyden. Mr. Doud?
    Mr. Doud. No, Senator.
    Mr. Kearns. No, sir.
    Senator Wyden. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Again, each of you.
    Mr. Gerrish. No, Senator.
    Mr. Doud. No, Senator.
    Mr. Kearns. No, sir.
    Senator Wyden. Very good. Do you agree, without 
reservation, to respond to any reasonable summons to appear and 
testify before any duly constituted committee of the Congress, 
if you are confirmed?
    Mr. Gerrish. Yes, Senator.
    Mr. Doud. Yes, Senator.
    Mr. Kearns. Yes.
    Senator Wyden. Finally, do you commit to provide a prompt 
response in writing to any questions addressed to you by any 
Senator of the committee?
    Mr. Gerrish. Yes, I do.
    Mr. Doud. Yes.
    Mr. Kearns. Yes, I will.
    Senator Wyden. Very good. I am going to start with some 
questions. As I say, we are going to have colleagues coming in.
    Mr. Gerrish, I have some questions for you that I would 
like just a ``yes'' or ``no'' answer to, particularly since, as 
you heard in my opening statement, I am concerned when you have 
both the Republican member and the Democratic member of the 
local election board expressing some concern.
    Did you know you were breaking the law? That is a ``yes'' 
or ``no'' answer.
    Mr. Gerrish. No, Senator.
    Senator Wyden. How did you happen to vote in this 
particular election? You no longer lived in Virginia, but you 
voted there in the 2016 general election. Virginia provides a 
30-day grace period to former residents. That is way outside 
the law.
    So it is just kind of hard to understand how a skilled 
attorney could be voting in a place where he no longer lives.
    Let us talk about that. How did this happen?
    Mr. Gerrish. Thank you, Senator. I would be happy to answer 
that.
    My family and I lived in Virginia for over 18 years before 
moving to Maryland last summer. At the time of the election, I 
still had my Virginia driver's license. My car was still 
registered in Virginia. I was still responsible for paying 
personal property taxes in Virginia.
    I believed that there was a grace period and that I still 
had time under that grace period to be able to transfer 
everything over to Maryland and to be able to continue to vote 
in Virginia, where I was registered to vote and had voted since 
first moving to this area over 18 years before.
    Based on that understanding, I did vote in Virginia in the 
election. And I understood that there was a grace period and 
that I could continue to vote in Virginia. I had no ill intent, 
no wrongful intent. I did not think that I was doing anything 
wrong.
    I believed that I was just doing what I had a right and an 
ability to do and, in fact, a civic duty to do, which was vote 
in the election.
    Senator Wyden. You had a civic duty to vote in a place you 
no longer lived. I just want to make sure I am not hearing it 
wrong.
    Mr. Gerrish. Senator, I believed I had----
    Senator Wyden. That is a ``yes'' or ``no.'' You felt you 
had a civic duty to vote in a place you no longer lived?
    Mr. Gerrish. Yes. I believed I had a civic duty to vote in 
the election, and I believed I still had the ability----
    Senator Wyden. That was not the question I asked. So let 
the record reflect that the witness did not answer the 
question.
    Did you buy a new house and move from Virginia to Maryland 
in June of 2016, roughly 5 months before the 2016 election day?
    Mr. Gerrish. Yes. We moved to Maryland at the end of June. 
So it was just over 4 months before the election.
    Senator Wyden. Did you vote in Virginia for the 2016 
presidential election even though you were then a resident of 
Maryland?
    Mr. Gerrish. Yes, I did. But I believed that I still had a 
grace period and had time to be able to vote in Virginia during 
that time. And I had been registered to vote in Virginia and 
had voted in Virginia for over 18 years at that point. So I 
really did not think that there was an issue.
    I believed I was still within the grace period, and it was 
an honest, good faith oversight on my part. I did not look into 
or research what the grace period actually was, and I wish I 
had.
    Senator Wyden. Under Virginia election law, you were 
required to confirm orally or in writing to an election 
official or a poll worker that you still lived at your previous 
Virginia residence in order to vote.
    Did you do that when you voted in Virginia for the 2016 
presidential election?
    Mr. Gerrish. I do not believe I did. My recollection is I 
went in, I told them my name, I gave them my driver's license, 
they checked my name off a list, handed me a ballot, and told 
me where to go to vote.
    Senator Wyden. The Virginia election law says you are 
required to confirm to an election official that you still 
lived at your previous Virginia residence.
    Are you saying the Virginia election officials messed up 
and did not get into it with you?
    Again, for somebody like yourself, a very skilled lawyer--I 
am a lawyer too. I am a lawyer in name only. I do not have your 
skills. This is just getting a little bit implausible.
    Are you saying the Virginia election officials messed up 
and they did not ask you to confirm in some way that you still 
lived at your previous residence?
    Mr. Gerrish. No. I do not believe that they asked me to do 
that, and my recollection is that I just walked in and handed 
them my driver's license, and they checked off my name on a 
list.
    Senator Wyden. Do you think you ought to be held to a 
different legal standard than any other Virginia or Maryland 
voter seeking to vote in the 2016 election?
    Mr. Gerrish. I do not believe so. I am an attorney, you are 
absolutely right. I have close to 20 years of experience as an 
international trade lawyer. I am not an expert in election law 
or certainly not Virginia election law.
    I believed that I had a grace period and that I was within 
that grace period and still had time under the grace period to 
vote in Virginia, where I was registered to vote and had voted 
for over 18 years. And so I do not believe so.
    This was truly a good faith oversight on my part and 
something I certainly wish I had looked into and had 
researched. And it is not consistent with how I normally would 
conduct myself.
    I think people who know me would say that I am a 
conscientious, diligent, thorough person, and I simply did not 
look into this or research this.
    Senator Wyden. My time is up. This last answer is important 
to me.
    So what you are saying is that you now realize that you 
made a serious mistake, (a), and (b), you should have taken the 
time to figure out what the rules and the laws were so that 
this serious mistake had not happened.
    Mr. Gerrish. I do realize that I should have looked into 
this and I wish I had, and I simply did not look into it. I 
believed I was still within that grace period, and it was just 
simply and purely a good faith oversight on my part.
    Senator Wyden. Mr. Chairman, my time is up. We have also 
been joined by Senator Menendez. Can he be recognized?
    The Chairman. Yes. Go ahead.
    Senator Wyden. Very good.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Gerrish, when this committee was debating Trade 
Promotion Authority 2 years ago, it passed my amendment into 
law that barred fast-track procedures for any trade agreement 
with a country on Tier 3 of the State Department's Trafficking 
in Persons Report, a group of countries that failed to combat 
human trafficking. Following that amendment, we saw an 
unprecedented politicalization of the TIP report, where 
countries were upgraded based on unrelated factors, one of 
those being trade, in my opinion.
    If confirmed, you will oversee our trading relationships 
with several countries that have poor records on combating 
human trafficking. Will you commit to us that, if confirmed, 
you will not take any action to attempt to influence the TIP 
report, the Trafficking in Persons report?
    Mr. Gerrish. Yes, I will confirm that, Senator, and I will 
act in accordance with the requirements of TPA.
    Senator Menendez. Will the administration seek to 
negotiate, to your knowledge, any trade agreements with 
countries currently or recently on Tier 3 of the TIP report?
    Mr. Gerrish. Senator, I, of course, am not in the 
administration and do not know what discussions have taken 
place.
    Senator Menendez. In preparation for this hearing, I am 
sure you have had some conversations. Do you have any 
understanding from those preparations that they intend to 
pursue such?
    Mr. Gerrish. I have no understanding of those preparations.
    Senator Menendez. I hope you will be an advocate of 
observing the law that Congress put into effect.
    Mr. Gerrish. I will, Senator, and, if confirmed, I look 
forward to working with you to make sure that we do that.
    Senator Menendez. Let me ask you: when Ambassador 
Lighthizer was last before this committee in June, he 
emphasized how important it is that we obtain enforceable labor 
provisions in agreements. Recent press reports suggest that the 
administration is advocating for an optional dispute settlement 
mechanism as it relates to NAFTA, which could be--I know you 
are not going to be involved in NAFTA from the position you 
have been nominated to, but it could be a forerunner of other 
agreements as we look at other countries.
    That would mean that parties could choose whether or not to 
subject themselves to the enforcement of the deal, including 
labor obligations. Do you believe that an optional dispute 
mechanism is an effective way to make our labor obligations 
enforceable by other countries?
    Mr. Gerrish. Senator, I do not know the exact details of 
what this optional dispute settlement mechanism would be and 
what issues it would cover and whether it would cover labor or 
just other types of issues.
    I do think it is important for us to have strong and 
enforceable labor provisions in our trade agreements and 
certainly would work to do that and look for----
    Senator Menendez. So you say you do not know the specifics. 
Let me ask you abstractly, since you are an expert attorney.
    With parties choosing whether or not to subject themselves 
to the enforcement of the deal, what is the value of having a 
deal, whether it be about labor or any other element? Where the 
parties can choose whether or not to subject themselves to the 
enforcement of the deal, how is that ultimately a truly 
enforceable deal?
    Mr. Gerrish. I think there may be situations where it is 
appropriate to have optional dispute settlement as part of an 
agreement. However, I understand your point and I understand 
the concern, and certainly, if confirmed, I would want to work 
with you to ensure that we have strong and enforceable 
provisions.
    Senator Menendez. An optional dispute settlement would be 
maybe an alternative way of still submitting yourselves to the 
obligations of the agreement, but finding a different way; for 
example, arbitration. That is a little different than what is 
being discussed here.
    Let me turn to one other question with you.
    Back in April, the President said he would be willing to 
accommodate China in our trade disputes if they applied 
pressure to deal with North Korea. He then went on to say that 
labeling China a currency manipulator would be 
counterproductive to securing that cooperation. But back in 
June, the President conceded this strategy did not work.
    So my question to you, now that the President has 
acknowledged that China is either unable or unwilling to put 
pressure on North Korea, will you recommend to Ambassador 
Lighthizer and the President to follow through with the trade 
enforcement measures that the President called for during the 
campaign?
    Mr. Gerrish. Senator, I believe we need to take strong 
enforcement measures against China, where appropriate. I think 
there are a number of issues we have with China, and it is 
going to be important for us, if I am confirmed, to get in 
there and assess all the different issues and for us to use all 
the tools available to us under U.S. law and under the WTO 
agreements to be able to take strong action against China.
    Senator Menendez. I am going to follow up with you. I have 
some questions for the record. My time has just about expired. 
But I am looking forward to hearing your specifics on that.
    Finally, Mr. Kearns, let me ask you: my understanding is 
that the antidumping and countervailing duty statute right now 
does not give purchasers and end users the same legal status as 
domestic producers, importers, or even foreign exporters or 
governments. They are not regarded as so-called interested 
parties.
    I also understand that the ITC sends out questionnaires to 
purchasers and end users and demands that they answer, with one 
reason being that the information from the purchasers and end 
users is among the most valuable to the ITC in determining how 
competition is occurring in the U.S. market.
    There are manufacturing jobs in New Jersey that could be 
impacted by the ITC's determination in this area. So I want to 
understand, and this is my one question, how much value and 
weight do you think the Commission should place on submissions 
from purchasers and end users?
    Mr. Kearns. Thank you, Senator. In private practice, I was 
very involved in reviewing those kinds of questionnaires, and I 
was always very impressed by the fact that both producers in 
the domestic industry, as well as purchasers, seemed to answer 
those questions very carefully, thoroughly, and without bias 
one way or the other.
    So I do believe that their input can be very valuable to 
the process.
    Senator Menendez. I have a follow-up question, but I will 
yield, since my time is up.
    The Chairman. Thank you, Senator.
    Senator Roberts, are you next?
    Senator Roberts. Yes. Thank you, Mr. Chairman.
    As we progress in the renegotiation of NAFTA, pretty much 
the ag industry has made it clear that the number one priority 
is to do no harm. NAFTA has widely been viewed as successful, 
at least within the agriculture community and all those 
related, and also successful for all three countries: Canada, 
Mexico, and the United States.
    The administration is reportedly considering proposals such 
as season-based trade remedies or dispute resolution mechanisms 
that could have a broad impact on U.S. agriculture.
    All three, really quickly. What do you view as the 
appropriate measure of doing no harm to agriculture and NAFTA 
and other existing agreements, like the free trade agreement 
with Korea or in new agreements with the Pacific Rim countries?
    Mr. Gerrish, why don't you just start off ? Really quickly, 
please.
    Mr. Gerrish. Thank you, Senator. I agree with you, we 
should do no harm. Where certain segments of the economy have 
done well under particular trade agreements, we should seek to 
build on that and expand our trade opportunities and knock down 
barriers in other markets where we can do so.
    I think we should also try to fix whatever problems there 
are in the various agreements, and there have been a number of 
problems identified with NAFTA and with the Korea-U.S. free 
trade agreement, and those are issues we should address both in 
terms of implementation issues, but also in terms of making 
modifications and amendments, where appropriate.
    But I agree with your sentiment. I would take the 
Hippocratic oath and agree to do no harm where we have 
benefitted under these agreements.
    Senator Roberts. Greg?
    Mr. Doud. Senator, it is hard to overstate the importance 
of NAFTA to U.S. agriculture. Those are our second and third 
biggest markets.
    I think the number is, they account for $38 billion of 
about $138 billion in U.S. agricultural exports, just those two 
countries. I saw a statistic the other day--that amounts to 
287,000 jobs in the U.S., just agriculture to the NAFTA 
countries.
    So there are things that we can upgrade. And with regard to 
Korea, that is an enormously important market for meat. That 
40-percent tariff that we had in beef, bringing that down, has 
made that an over $1 billion market for us now on the beef side 
of the equation.
    There are always ways you can improve these markets, but we 
have to maintain them, Senator.
    Senator Roberts. Mr. Kearns?
    Mr. Kearns. Senator, I think that question is a policy 
question that is best directed to USTR. I can say, if I were 
confirmed at the ITC, I would provide as much technical 
assistance as I could to USTR and to the committee about what 
agricultural trade looks like. But I think that is a policy 
question that I would not really be asked to entertain at the 
ITC.
    Senator Roberts. I do not think we made a first and ten on 
that one.
    What, in your opinion, is the nexus between trade and our 
national security? Mr. Gerrish?
    Mr. Gerrish. Senator, my focus certainly is going to be 
purely on trade issues and ensuring that our companies and our 
farmers----
    Senator Roberts. Okay. Fine. Greg?
    Mr. Doud. Senator, if we can keep the world fed, they are 
going to stay a lot calmer.
    Senator Roberts. Mr. Kearns?
    Mr. Kearns. Again, I think that the ITC can provide a lot 
of technical assistance and help in understanding what impact 
trade can have on a variety of U.S. industries, including the 
ones related to national security.
    Senator Roberts. I think if you plant the American flag on 
trade, you also plant the American flag where we can certainly 
be in a better position with regard to our national security. 
It sends a signal to our trading partners, but also sends a 
signal to our adversaries, and that was the answer I was 
looking for.
    Mr. Chairman, I have been involved in, I think, seven 
different trade pacts in my career of public service, and they 
are all oversold and they are all over-criticized, but there is 
a sweet spot there that we can get to. And I know, Greg, you 
are going to do a good job in leading that effort.
    But we also have an ideological approach, more especially 
in this administration, on what we think should be policy 
objectives to put into trade bills. As a matter of fact, we 
heard from the White House Counsel on Trade who had 34 policy 
objectives, some of which we had already taken action on to 
take out of the context of public law.
    I do not know if you have any comments on that. I am not 
going to ask you that. I am just going to make the point that 
if we do not do something quickly, this farm situation is going 
to become even more difficult, and it is difficult right now.
    To use a term of my predecessor way back in the House days, 
you either have to sell it or smell it, and we are about right 
there. We have to export our products.
    So I would ask you to consider--and my time has run out, 
and we will just toss this out as an admonition. Do what you 
can to get our trade policy back to being robust and a reliable 
supplier and quit letting countries take our markets, because 
that is what they are doing right now, and that is what farmers 
and ranchers and growers are upset about, as well as everybody 
within the related industries in agriculture.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Casey?
    Senator Casey. Thank you, Mr. Chairman. I thank the 
nominees for being here.
    I want to say first, I know that this issue has been raised 
about voting, because one of the nominees has an issue there. 
But I will tell you, when I look at this issue from the 
perspective of my home State, where we take the franchise very 
seriously and we have had lots of elections where it was never 
in question whether or not the State would erect barriers to 
voting, unfortunately, a number of years ago, just before the 
2012 election, the general assembly passed and the Governor 
signed a so-called voter ID law, and it was an embarrassment. 
It was an insult to the people.
    It was ultimately struck down, but when I consider the 
obsession that has gripped at least one political party here in 
town, where we know that between 2000 and 2014, there were 31 
credible instances of in-person voter fraud out of a billion 
votes cast, and then you have a commission and all kinds of 
statements about voter fraud--I mean, it is really outrageous 
and ridiculous.
    I think the arguments that have been made in Washington on 
this alleged voter fraud do not pass a very serious, but 
important test, the hysterical laughter test, which means when 
you assert something and the entire world laughs at it because 
it is so absurd because there is no evidence to support it, it 
is probably not true.
    I know it is not the only thing we are here to talk about, 
but I think it is of great concern to me, the statements that 
have been made about voter fraud, both within Pennsylvania and 
across the country. So I hope we can be serious about these 
issues.
    Mr. Doud, I do not have a lot of time. I just wanted to ask 
you one question about specialty crops. A substantial part of 
our farm economy is specialty crops. I know you spoke to our 
staff about this issue.
    In particular, you were learning more about the demands on 
our farmers who produce specialty crops. Could you tell us how 
you would approach trade issues related to specialty crops and 
how you would balance those needs with commodity crops and how 
you would address the divisions between specialty producers 
from various parts of the country, as is being borne out in the 
current NAFTA negotiation?
    Mr. Doud. Senator, I think one of the things we can say 
about agriculture and trade agreements is, it is all for one 
and one for all.
    Agriculture, the entire industry, does stick together on 
these agreements. I have not been briefed yet on the specifics 
of where things stand with regard to specialty crops and what 
the proposals are or what the plans are. But this is a very 
serious issue.
    I look forward to working with you and seeing what can be 
done here to address this and making sure that, at the end of 
the day, we can keep agriculture together and everybody is 
pulling forward with regard to having an agreement that 
everyone can support.
    Senator Casey. Thank you. I will submit some other 
questions for the record, Mr. Chairman. I will yield back the 
time. Thank you.
    The Chairman. Thank you.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman. I welcome all 
three of our nominees and thank you for your willingness to 
serve our country.
    Mr. Gerrish, I want to talk a little bit about trade 
policy. The responsibility for trade policy rests with the 
Congress. We delegate that to the administration because it is 
a little cumbersome for 535 of us to negotiate. So we delegate 
it to the executive branch, but we provide the parameters on 
which those negotiations should take place.
    In the most recent Trade Promotion Authority legislation, 
we included as the principal trade negotiating objective 
dealing with good governance, dealing with capacity-building, 
dealing with human rights, dealing with anticorruption. In TPP, 
we saw progress made on all of those fronts. I understand that 
is no longer there, but there were agreements reached at the 
negotiating level that included this chapter, which was novel.
    I have been here long enough to know that unless it is in 
the core agreements and there are trade sanctions, you are not 
going to make the progress, and that you need to make progress 
prior to the implementation of the trade agreements, because 
after they are implemented, it is extremely difficult to get 
progress made.
    I would just like to hear your commitment, if confirmed, to 
carry out this principal trade negotiating objective and how 
important you believe it is that our trading partners, 
particularly if we are dealing with countries that do not share 
our same democratic principles, how important it is to build up 
these capacities.
    Mr. Gerrish. Thank you, Senator. And I do commit to abide 
by the requirements of the most recent Trade Promotion 
Authority legislation.
    And I do understand and agree with your point on it being 
important to have everything in the actual agreement itself to 
make sure that there are strong and enforceable provisions. I 
know we have had some experiences with that, including under 
NAFTA, where that has not been the case.
    I think it is important for us to make sure that we do, in 
fact, do that going forward, and I certainly commit to you to 
comply with the requirements of TPA.
    Senator Cardin. I appreciate that. You are good to bring up 
NAFTA, because NAFTA, at the time, was very forward-thinking to 
include environment and labor in a trade agreement. The problem 
was, it was not in the core agreement. It was not enforceable 
through trade sanctions. So it really was not able to be 
enforced.
    The same concerns are more difficult in good governance, 
because even if it is in the core agreements and even if there 
are trade sanctions, good governance is more difficult to 
quantitate. So it requires a real commitment to establish the 
guideposts for how you are going to make those decisions.
    For example, you can enact laws, but if you do not enforce 
the laws, then you are not doing what you said you were going 
to do. There is a lack of capacity. So unless we put in the 
trade agreements the resources to build capacity and we have 
ways of knowing when it is achieved, you are not going to reach 
where you need to be.
    My point is--and I think your reference to NAFTA is very 
important--we are in new territory here, and if the United 
States does not lead on this, no other country will. And it is 
in the interest of our companies for the United States to lead 
in this area.
    So I appreciate that you will follow our direction, which 
you would be required to do, I believe. But how important is 
this to you as we try to expand opportunities for American 
companies?
    Mr. Gerrish. Senator, I think it is very important for the 
United States to lead the charge on these issues that you have 
raised, and, if confirmed, I would look forward to the 
opportunity to work with you and with the other members of the 
committee in terms of how we could, in fact, do that in a 
practical way.
    So I hope I do have the opportunity to do that, and I do 
think it is important for us to lead the charge.
    Senator Cardin. Well, I will follow up on that. If you are 
confirmed, I really will ask that you work with this committee 
and work with the members of this committee who have a direct 
interest in it.
    There are some good standards on anticorruption. There are 
areas where we can make specific progress. We would ask that, 
as you carry out that responsibility, you engage us so that, at 
the end of the day, we are on the same page.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman. And thank all of 
you for appearing before the committee today and for your 
willingness to serve in the positions to which you have been 
nominated by the President.
    Mr. Doud, given their importance to agriculture and the 
U.S. economy, would you describe how you would work to preserve 
existing trade agreements and to open up new markets?
    Mr. Doud. Well, Senator, I think the first thing we have to 
do is work to preserve NAFTA. There are opportunities where we 
can do better with regard to--dairy in Canada, I think, is an 
important issue. We have recently discussed the specialty crop 
issue.
    As I mentioned in my testimony, Senator, we also have to 
play offense, and I think at the top of that list is Japan. I 
think for agriculture, in particular on the meat side, we are 
growing and we are growing very, very rapidly, and that 
southeast Asian part of the world is the best opportunity we 
have to sell those products. So we have to maintain what we 
have, but we have to grow.
    Another place where I think there is a lot of work to be 
done--it is going to be difficult--is China, and that is a day-
to-day, week-to-week, month-to-month slog.
    Senator Thune. Well, I hope you will keep slogging it out, 
because those are really important markets. And in the wake of 
TPP being withdrawn from, I think we really have to be very 
aggressive in trying to enter into bilateral agreements with 
some of these countries that represent, I think, huge market 
opportunities for American agriculture, among other industry 
sectors.
    The 2014 farm bill established the position of Under 
Secretary for Trade and Foreign Agricultural Affairs at USDA, 
but the previous administration never filled the position. The 
Ag Committee recently held a confirmation hearing for Mr. Ted 
McKinney, who was President Trump's nominee for this important 
position.
    If confirmed, will you commit to working with the USDA 
Under Secretary for Trade to ensure that USDA is present during 
ag trade negotiations?
    Mr. Doud. Yes, Senator, I will. That provision in the farm 
bill, I was the senior professional staffer on the Ag Committee 
at the time when we did that in the farm bill, and I am very 
happy that that got in there.
    I have known Mr. McKinney, I believe, for nearly 30 years, 
and we both have been members of the Farm Foundation in recent 
years, and I very much look forward to working with him.
    Senator Thune. Great. This I will direct not only to you, 
but also to Mr. Gerrish, and that is the question about the 
European Union using its free trade agreements to create de 
facto non-tariff barriers for our ag exports by misusing 
geographical indications.
    The EU is now intent on doing that in its FTAs with Japan 
and Mexico, which is very concerning to me, as Japan and Mexico 
are two of our largest export markets. Restrictions in those 
markets on U.S. products would be unacceptable.
    How will you work to prevent those types of unfounded 
barriers to trade and ensure that our trading partners know 
there will be consequences if they choose to block our products 
simply to curry favor with the European Union?
    Mr. Doud and Mr. Gerrish, I would like to hear from both of 
you on this.
    Mr. Doud. Senator, that geographic indicator issue is a top 
priority. It is just not something that we could possibly ever 
tolerate.
    The multitude of sanitary and phytosanitary issues of non-
tariff trade barriers with the European Union is a very, very 
long list, and the ability to keep that sentiment from 
spreading around the world is why we have to continue to work 
every day to have access for our markets.
    They have been doing this for a long time, and we have to 
put a stop to it.
    Senator Thune. Mr. Gerrish?
    Mr. Gerrish. Senator, I completely agree with Mr. Doud. I 
think the geographical indications issue is a top priority. We 
have to work bilaterally with our trading partners, including 
Mexico and Japan, to counteract that, to work against it, to 
make sure that they do not adopt those barriers to our exports.
    I think it is also coming up outside the agricultural area 
with the EU as well, with their standardization requirements 
that they are trying to impose through their free trade 
agreements.
    So we need to work bilaterally with Mexico and Japan and 
others to ensure that those are not adopted and they do not act 
as barriers to our exports.
    Senator Thune. Thank you. I hope you guys are very 
aggressive on that front.
    Thank you, Mr. Chairman. Thank you all.
    The Chairman. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman. Welcome to the 
witnesses, and thank you for your willingness to serve.
    I think I would like to continue with my colleague's 
discussion on ag, just as it relates to our State and the fact 
that there has been a lot of discussion from the White House on 
renegotiating agreements.
    In 1996, the export value for Washington State to Canada 
and Mexico was $2.6 billion, and that has grown to about $6.8 
billion today. I think before that agreement, State apple 
exports were very little or nonexistent to Mexico, and now they 
are $128 million worth of product.
    Since those negotiations have started, there are concerns 
about a proposed provision for perishable and seasonal products 
that, if adopted, could restrict export of U.S. product to 
Canada and Mexico. My colleagues have sent a letter 
highlighting this provision and the dangers of it. We have not 
heard back from Ambassador Lighthizer yet on this language as 
it was put forth in the conversations in Ottawa. So we are very 
concerned about that.
    We want people to understand that these are very high 
stakes for all of us. I think the administration is taking the 
attitude that there will be winners and losers, and that is not 
the attitude that we in Washington want to see. I am concerned 
that for our ag community, this could be a real loss. How will 
you ensure that the administration does not jeopardize the 
strong trading relationships that our ag community now has?
    Mr. Doud. Well, Senator, I do not like to go backwards. 
NAFTA and agriculture are critically important to the farm 
economy in this country. We had a great conversation in your 
office about the importance of this.
    I have not been briefed on the details of perishable 
product issues and where we are at, but I am a strong advocate 
for agriculture, as Senator Roberts indicated. I look forward 
to working with you on this in the future.
    Senator Cantwell. And that comment means you do not think 
we should go backwards.
    Mr. Doud. No--we will not go backwards.
    Senator Cantwell. Thank you.
    Mr. Doud. I would have no intention of it on my watch, 
Senator.
    Senator Cantwell. Mr. Gerrish, do you support the Export-
Import Bank?
    Mr. Gerrish. I do, Senator. I believe the administration 
has been appointing nominees for the bank, and I do support it.
    Senator Cantwell. Well, just to be clear on that point, the 
administration is supporting some nominees who want to destroy 
the bank. So we are not for that.
    But we do want a functioning bank, and we do think it is 
important to have them functioning at all levels of the 
financing that they can provide, and we think it is critical to 
our export strategy as a Nation, given that so many consumers 
live outside the United States. It is the key tool by which we 
can make sure that those sales win in the marketplace.
    Mr. Kearns, obviously aerospace is also important to the 
State of Washington, and it is one of our largest exporting 
sectors, with $124 billion a year in commercial aircraft.
    If you are confirmed, how will you combat the unfair trade 
practices that we are seeing, particularly as the aerospace 
market is the big bonanza winner for so many manufacturing jobs 
around the globe and we see practices of unfairly subsidizing 
aerospace manufacturing?
    Mr. Kearns. Thank you, Senator. As you know, that is an 
issue that is pending before the ITC now, and I need to be 
careful in how I answer. But I think it is fair to say that the 
role that the ITC plays in subsidy issues is a very important 
one.
    We are the ones who will determine whether an industry is 
materially injured by unfairly traded imports, and I take that 
role very seriously.
    Senator Cantwell. Do you think there is something that we 
should be doing--I am now asking you just a broader theoretical 
question--about expediting some of the decision-making? For 
example, the World Trade Organization took a very long time to 
finally declare that Airbus had unfairly subsidized, through 
launch aid, the aerospace manufacturing of planes in their 
country and continues to do so, and yet, to get the economic 
relief of that can take decades. The market changes.
    Now, we believe in competition and believe in being 
aggressive about competition. But do you think we need to 
streamline or think of ways to expedite some of these 
decisions? Not expedite, but get a timeline where these issues 
are discussed in a way that reflects more about what is 
happening in the market.
    Mr. Kearns. Yes. Of course, in my role at the ITC, I do not 
think I would be involved in providing advice on WTO dispute 
settlements, for example, but I think there is little question 
that the amount of time it has taken to resolve that dispute at 
the WTO has been frustrating for just about everyone involved.
    Senator Cantwell. Well, Mr. Chairman, I am very convinced 
that these three gentlemen represent a huge opportunity for the 
United States of America. That is, I have every confidence that 
Americans are building and growing and making the best 
products. It is really a question about whether we are going to 
be well-
prepared to win the battle in trade discussions, win the battle 
legally, and win the battle in the world front of making sure 
that markets are open to our products.
    So I thank them for their willingness to serve.
    The Chairman. Thank you, Senator. I appreciate you and your 
questions.
    Let me just say this. I want to thank everyone for 
participating here today and for your attendance. As we have 
discussed many times before, this is a critical time to review 
and confirm the President's nominees. Our country is relying on 
us to get qualified and capable individuals into their 
positions so that they can get to work and get some things done 
here.
    With regard to written questions for the record, I ask that 
all members submit them by close of business next Tuesday, 
October 10th.
    With that, I do not notice anybody else who is here to ask 
any questions, so we will adjourn this hearing. Thank you all 
for being willing to serve. We really appreciate it.
    With that, we will adjourn.
    [Whereupon, at 11:49 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


Prepared Statement of Gregory Doud, Nominated to be Chief Agricultural 
Negotiator, Office of the United States Trade Representative, With the 
         Rank of Ambassador, Executive Office of the President
    Chairman Hatch, Ranking Member Wyden, members of the Senate Finance 
Committee, thank you for welcoming me here today. I am honored to be 
considered by this committee as President Trump's nominee to be Chief 
Agricultural Negotiator in the Office of the United States Trade 
Representative.

    I would first like to recognize my wife, Pennye, our children Abby 
and Aidan, and my parents, Eldon and JoAnn Doud from Mankato, Kansas. I 
am grateful for Pennye's willingness to allow me this opportunity to 
serve our country and its farmers and ranchers in this capacity.

    Growing up on the farm in Kansas, I have vivid memories of the 
economic difficulties that followed the decision to embargo U.S. sales 
of wheat to the Soviet Union. After graduate school, I jumped at the 
opportunity to work for U.S. Wheat Associates, which immediately 
exposed me to the multitude and complexity of challenges that we face 
in selling our wheat overseas.

    As chief economist of the National Cattlemen's Beef Association, I 
spent each day for over 7 years coordinating industry efforts with 
USTR, USDA and even our State Department as we slowly rebuilt our beef 
exports, from virtually scratch, in the aftermath of the single BSE cow 
that stole the Christmas of 2003. While in this role, I also served as 
a ``cleared advisor'' and later chairman of the USDA/USTR Animal and 
Animal Products Agricultural Trade Advisory Committee (ATAC). This was 
during an extremely active period when trade agreements with Australia, 
Bahrain, Colombia, CAFTA, South Korea, Morocco, Panama and Peru were 
negotiated.

    America's farmers and ranchers understand that their future and 
their new wealth, as Thomas Jefferson would put it, depends upon the 
ability to export the food and fiber they grow to the 95 percent of the 
world's population that lives outside the United States. They also 
understand, as do I, that these efforts can take years to accomplish 
and require a unique combination of strategy and relationship building.

    I have spent the vast majority of my career involved in wheat, 
soybean and beef export market development efforts in addition to 
serving as Senior Professional Staff on the Senate Agriculture 
Committee responsible for trade matters. If confirmed, I would consider 
it an honor and privilege to join Ambassador Lighthizer and the team at 
USTR, which are dedicated to creating new opportunities for U.S. 
agriculture and, of course, maintain existing relationships.

    As I have discussed with Ambassador Lighthizer, when it comes to 
trade agreements, U.S. agriculture plays offense. Our Nation's farmers 
and ranchers grow world class products, and should be able to export to 
any market in the world and be competitive. If confirmed as Chief 
Agriculture Negotiator, I will work to reduce barriers to U.S. 
agriculture and secure greater market access for American farmers and 
ranchers.

    One area where work is needed is Japan. We are at a particularly 
critical juncture in terms of our competitiveness for U.S. meat exports 
into Japan. Failure to address this situation immediately does not bode 
well for our fiercely competitive and rapidly expanding production of 
beef, pork and poultry. In fact, this is not only true for Japan but 
for all Southeast Asia as well.

    Keeping in mind that the evolution of more liberalized trade in 
agricultural products takes a great deal of patience, we must also get 
started today in planting new trees of market access even though it may 
take time before we're able to enjoy some shade from such efforts. In 
this category, India certainly comes to mind as a place, which, before 
long, could grow to be the most heavily populated nation on the planet.

    If confirmed, I look forward to working with Ambassador Lighthizer, 
and the stellar team of professionals at USTR to expand markets for 
U.S. agriculture. I also look forward to working closely with USDA's 
new Undersecretary for Trade to make sure that agriculture always has a 
voice when it comes to the nearly $140 billion portfolio that is U.S. 
agricultural exports.

    I look forward to working with you, Chairman Hatch, Ranking Member 
Wyden, and the members of this committee to drive a strategy consistent 
with the objectives of Trade Promotion Authority toward reality.

    Most importantly, I thank the President for this opportunity and 
the committee for considering my nomination. I am happy to answer any 
questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Gregory Fay Doud (Gregg).

 2.  Position to which nominated: Chief Agricultural Negotiator, Office 
of the United States Trade Representative.

 3.  Date of nomination: June 19, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: May 6, 1967, Smith Center, KS.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

     Mankato High School, Mankato, KS, 1981-1985, graduated May 1985.

     Kansas State University 1985-1989, BS Agriculture (animal science/
pre-vet) received May 1989.

     Kansas State University 1989-1991, MS agricultural economics 
received July 1991.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     U.S. WHEAT ASSOCIATES, INC., Washington, DC 1991-1997 (export 
development organization representing U.S. wheat producers in markets 
worldwide).

     Assistant director, west coast office, Portland, Oregon (1991 to 
1992). Recruited to newly created position to manage commodity trading 
programs for visiting foreign trade delegations throughout the region. 
Planned schedules, agendas, meetings, and conferences to promote the 
sale of hundreds of millions of dollars in annual purchases from 
leading wheat producers.

     Research and market analyst, DC Headquarters (1992 to 1997). High-
profile position working closely with U.S. Wheat Associates' president 
across a broad range of disciplines to advance the U.S. wheat 
industry's profitable presence worldwide. Excelled in the areas of 
policy development, market analysis, buyer and producer relations, 
program/project management, and senior-level liaison affairs.

     WORLD PERSPECTIVES, INC., Washington, DC 1997-2000 (international 
trade policy and commodity market intelligence wire service for global 
trading firms).

     Vice president, information services--Member of an exclusive 
agricultural market intelligence firm well-known and well-respected as 
a leader in industry, economic policy, and trend analysis. Created, 
marketed, and led a series of sophisticated market intelligence and 
research programs to produce premier industry publications and data 
resources. Key industry liaison to worldwide subscriber base including 
the U.S. Department of Agriculture, Senators, Congressman, foreign 
dignitaries, international trade organizations, and major U.S. and 
foreign multinational corporations.

     ARCHER DANIELS MIDLAND-AGRI, LLC, Washington, DC 2000-2001 (joint 
venture between ADM and USAgri to develop African agricultural 
commodity trading and infrastructure).

     Vice president--Responsible for developing methods to use U.S. 
Government food aid progress as a base for increased U.S. commodity 
exports and subsequent investments in agribusiness in Africa and other 
developing regions.

     AMERICAN SOYBEAN ASSOCIATION, Washington, DC January-
September 2002 (St Louis, Missouri-based export market development 
organization representing U.S. soybean producers in markets worldwide).

     Director of trade analysis/international marketing--Provided 
leadership in the identification, quantification, and communication of 
international trade and market barriers that negatively affect U.S. 
soybean and product sales and utilization.

     MUD SPRINGS GEOGRAPHERS, Washington, DC September-December 2002 
(Texas-based agriculture GIS firm).

     Consultant--Consulted in business development capacity helping Mud 
Springs with introductions and contacts into the agricultural industry.

     NATIONAL CATTLEMEN'S BEEF ASSOCIATION, Washington, DC 2003-2011 
(the trade association of America's cattle farmers and ranchers).

     Chief economist--NCBA's key liaison across a broad spectrum of 
audiences regarding financial conditions, industry economics, 
marketing, and international trade policy for the beef industry.

     UNITED STATES SENATE COMMITTEE ON AGRICULTURE, NUTRITION, AND 
FORESTRY, Washington, DC 2011-2013 (Ranking Member Roberts, 
Republican-Kansas; Ranking Member Thad Cochran, Republican-
Mississippi).

     Senior professional staff--Managed the livestock, international 
trade, food aid, and U.S. Commodity Futures Trading Commission (CFTC) 
portfolios as member of the minority staff.

     COMMODITY MARKETS COUNCIL, Washington, DC 2013-present (the 
leading trade association for commodity futures exchanges and their 
industry counterparts).

     President--Responsible for leading the advocacy efforts of an 
association whose members include some of world's largest agricultural 
and energy trading firms regarding regulatory initiatives of the 
Commodity Futures Trading Commission.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

     None.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

     Partnership in a commercial cow-calf operation with a non-family 
member located in Beloit, Kansas.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     Member--National Cattlemen's Beef Association/Kansas Livestock 
Association.
     Member--Farm Foundation Roundtable.
     Member--Kansas State University Alumni Association.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       None.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       Senator Pat Roberts campaign ($300--February 2015).
       Senator Pat Roberts campaign ($500--April 2017).
       Steve Schuh campaign--Anne Arundel County (MD) County Executive 
($150--June 2017).

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     Kansas State University College of Agriculture, Outstanding Young 
Alumni--2012; Brothers of the Century--Alpha Gamma Rho fraternity.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

     None.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

     In 2013, I spoke at the Range Beef Cow Symposium in Rapid City, 
SD. I do not have a copy of my remarks that focused on my perspective 
on how export markets for U.S. beef had evolved.

     I have also spoken to the Arizona Cattle Growers' Association in 
2015 and 2016. I do not have a copy of my remarks that provided a 
general overview of cattle market fundamentals (supply/demand), trade 
issues, and Washington, DC ag policy issues.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     With the exception of the past 4 years, I have spent essentially 
my entire career working on international trade policy and market 
access issues involving a number of different agricultural commodities 
across a multitude of countries. I have visited approximately 40 
countries in my life, including I would estimate about 20 trips to 
Mexico. The vast majority of my travels has related to working on 
behalf of U.S. wheat and soybean farmers as well as U.S. beef producers 
to increase U.S. exports.

     I served on the USDA/USTR Animal and Animal Products Ag Trade 
Advisory Committee during my tenure as chief economist of the National 
Cattlemen's Beef Association, including a stint as chairman of this 
group. This experience provided a deeper understanding of a significant 
number of trade issues across the entirety of animal agriculture. 
During this period, the United States negotiated the Australia, CAFTA, 
Colombia, Morocco, Panama, Peru, and South Korean Free Trade 
Agreements.

     It was an honor to work as a senior professional staff member on 
the Senate Agriculture Committee on all matters related to U.S. exports 
of agricultural products. During my tenure on the Senate Agriculture 
Committee staff I maintained a top secret security clearance, which 
allowed be the opportunity to work closely with our agriculture trade 
negotiators at USTR and the Trans-Pacific Partnership in particular.

     I believe my experience, both in the private sector and in 
government, and across the grains, oilseeds, and livestock sectors as 
well as my education in animal sciences and agricultural economics 
makes me uniquely qualified for this important position.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     Connection /employment with my current employer, the Commodity 
Markets Council, will be severed upon confirmation.

     I will maintain ownership in the commercial cow-calf (silent) 
partnership per the agreement outlined by the White House ethics office 
(retaining passive income on a per/head of cattle marketed annually 
basis only.)

     I would like to maintain my membership in the Kansas State 
University Alumni Association if possible.

     Per Farm Foundation Roundtable member requirements, upon 
confirmation, my membership in the Farm Foundation Roundtable will be 
suspended until I am no longer employed by the U.S. Government.

     All other memberships will end upon expiration.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

     No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

     Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     I have none.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     None of my personal business dealings or business relationships 
have had anything to do with the U.S. Government.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

    -- Indirectly involved in the Country-of-Origin Labeling (COOL) 
debate 2007-2011.
    -- Indirectly involved in the USDA ``GIPSA Rule'' debate 2009-2011.
    -- Indirectly involved in passage of free trade agreements 2007-
2011.
    -- Indirectly involved in CFTC-related issues including the CFTC 
reauthorization bill and issues covering deliverable supply estimates 
and swap dealer de minimis and position limits for commodity 
derivatives trading 2013-present.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

     I have not been a registered lobbyist during any time in the past 
10 years. During the vast majority of my career in Washington, DC my 
role has been as an economist and commodity analyst with a global 
scope. The livestock-related matters listed above are settled and also 
outside the scope of the Chief Agricultural Negotiator position. My 
role as Chief Agricultural Negotiator at USTR will have no application 
to issues related to commodity derivatives market regulation or law. I 
do not see any current or potential conflict of interest with anything 
I have done over the course of my career.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designate agency ethics officer of the agency to which 
you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

     Submitted to USTR.

 6.  The following information is to be provided only by nominees to 
the positions of United States Trade Representative and Deputy United 
States Trade Representative:

     Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

     No.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

     No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

     No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

     No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     I am thankful to have received significant support from the 
Washington, DC agricultural (trade association) community in favor of 
my nomination.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

     Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

     Yes.

                                 ______
                                 
           Questions Submitted for the Record to Gregory Doud
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Canada and Mexico are our first and third largest 
agricultural export markets, and American farmers have proven to be 
highly successful in competing in those marketplaces.

    Do you agree that the Canadian and Mexican markets are critical for 
supporting the livelihoods of millions of farmers and related workers, 
and if so, how important is the North American Free Trade Agreement to 
preserving those farm jobs?

    Answer. Canada and Mexico are very important markets for U.S. 
agriculture, and the access we have to those markets under the NAFTA is 
a key reason we are by far the largest supplier of agricultural 
products to each, but we can do better under a new NAFTA. If confirmed, 
I am committed to working to further expand agricultural exports to 
Canada and Mexico, including through NAFTA renegotiation.

    Question. As in other areas of innovation, the United States leads 
the world in developing and utilizing agricultural technology. This 
helps U.S. farmers and farmers around the globe increase yield and feed 
a growing world. Unfortunately, U.S. agricultural products are often 
blocked by other countries, not for scientific reasons, but rather to 
restrict trade from American farmers.

    How do you plan to prevent our trading partners from blocking 
American agriculture exports as U.S. technology continues to advance?

    Answer. Ensuring that American farmers have access to innovative 
agricultural technologies to address pest, disease, and other 
production challenges is critically important to feeding a growing 
world. Unjustified regulatory burdens and needless delays imposed by 
authorities in our key markets, such as China and the EU, have 
prevented the commercialization and use of certain innovative 
technologies, particularly biotechnology, in the last two decades. 
Currently, many countries are considering policy approaches to new 
innovative breeding tools, such as gene editing. If confirmed, I will 
use all tools at my disposal, including enforcement tools, to address 
not only the current regulatory barriers preventing the 
commercialization of biotech products, but also work to ensure that 
American farmers have access to innovative new breeding tools in the 
future.

                                 ______
                                 
                Questions Submitted by Hon. Pat Roberts
    Question. Our farmers and ranchers depend on strong trade 
relationships around the world. Expanding market access and ensuring 
that our producers remain competitive is critical to our economy. USTR 
and USDA have a history of working hand in hand to make sure that U.S. 
agriculture has a seat at the trade table.

    As the Chief Agricultural Negotiator for the United States, how 
will you work with other agencies, specifically USDA, to make sure that 
agriculture is a top priority?

    Answer. Food and agricultural exports provide critical support to 
farm income, and the food processing and beverage manufacturing 
industries are a top source for manufacturing jobs in the United 
States. USTR works closely with trade and technical experts at USDA, 
and other agencies, to resolve the full range of agricultural trade 
issues. If confirmed, I intend to maintain and strengthen that 
relationship and will work closely with USDA to expand agricultural 
exports as a top priority for the United States.

    Question. The administration has placed much of the focus on 
international trade on non-agricultural products like steel. 
Agricultural exports generated an export value of $133 billion in 2015. 
Export markets are critical to the agriculture industry.

    How will you ensure that the value of agricultural trade is 
understood and prioritized by the administration?

    Answer. I agree that agriculture is a critically important part of 
our trade agenda, and I believe that the President agrees, even if 
there is a large and justified emphasis on manufacturing trade. If 
confirmed, I will work to make sure an ambitious outcome for 
agriculture will be a central objective in any negotiation we 
undertake. I am committed to consulting closely with U.S. agricultural 
stakeholders and members of Congress to ensure that the interests of 
farmers and ranchers are fully considered in our decisions on 
international trade issues.

    Question. In addition, as the administration pursues potential 
trade remedies, how will you work with other agencies and the White 
House to make sure that consequences that could negatively impact 
agriculture, such as retaliation, are strongly considered?

    Answer. If confirmed, I will work closely with USDA and other 
agencies to ensure that U.S. trade policy decisions give full 
consideration to the implications for agricultural exports.

    Question. China is one of the United States' top agricultural 
markets. However, Kansas wheat farmers championed the recent cases 
announced by USTR on Chinese subsidies and tariff rate quotas (TRQs), 
as wheat growers are especially impacted by the seeming failure of 
China to adhere to their commitments in the WTO. Kansas ranks as the 
third highest U.S. State exporter of beef to the global market. Since 
2003, the U.S. beef industry had tried to regain access into China, and 
I was very pleased that China recently lifted its ban on U.S. beef. 
However, there is still work needed in monitoring this agreement and 
working to promote and grow this complex and sensitive trading 
relationship. This access to the Chinese market is critical for my 
cattlemen back home.

    These are just two of the challenges we face in one of our most 
important export markets. A strong trade policy is clearly about more 
than free trade agreements. How will you work with other countries to 
ensure that barriers to trade are reduced and eliminated?

    Answer. I fully understand the importance of enhancing market 
access around the world for farmers and ranchers in Kansas and all 
other States. U.S. food and agricultural exports face a number of 
unwarranted barriers and trade distortive policies in other countries, 
including China. Ensuring that our trading partners meet their 
international trade obligations, especially those of the World Trade 
Organization, is a core foundation for fairer and freer trade. If 
confirmed, I will work with Ambassador Lighthizer for the expansion of 
U.S. agricultural exports through negotiations that create enhanced 
export opportunities for our farmers and ranchers. Where countries fail 
to do so, we will work with the administration and congressional 
colleagues to aggressively utilize all available tools in the WTO, 
options under U.S. law, bilateral engagement, and other mechanisms.

    Question. Agricultural trade is essential to American farmers and 
ranchers, but expanding market access for our products through new 
trade agreements is just one piece of the puzzle. The enforcement of 
existing agreements will ensure that our trading partners are playing 
by the rules they have agreed to, and that our producers have a level 
playing field.

    Whether dealing with steel in China, dairy products in Canada, or 
other products, if confirmed, how will you approach enforcement of our 
agreements with other countries?

    Answer. If confirmed, I am committed to supporting the Trump 
administration's strong enforcement focus and using the full range of 
U.S. trade policy and enforcement tools, including WTO dispute 
settlement, and U.S. legal options to benefit U.S. agriculture. USTR 
and USDA work hard every day to resolve unfair trade barriers to U.S. 
agricultural exports, and many of those barriers are resolved because 
of those efforts. USTR is also currently pursuing multiple WTO disputes 
challenging agricultural trade barriers. For example, the 
administration has pushed forward with a WTO panel to examine the 
first-ever challenge to China's agricultural domestic support. USTR has 
also successfully established a WTO panel to examine China's TRQ 
administration for corn, wheat and rice. These enforcement efforts are 
a critical mechanism to ensure that our trading partners respect WTO 
rules and U.S. farmers and ranchers are able to compete on a level 
playing field with all WTO member countries.

                                 ______
                                 
               Question Submitted by Hon. Johnny Isakson
    Question. Agriculture exports are critically important to our 
economy and China represents an important market for many U.S. 
agricultural products. Cotton is a commodity that is dependent on 
exports, and over 90 percent of U.S. cotton is ultimately exported as 
either raw cotton, yarn, fabric, or apparel.

    I am sure you are aware of the ongoing relationship between the 
U.S. cotton industry and China. Over the last 13 years, U.S. cotton 
exports to China have averaged 4.6 million bales, which represents over 
30 percent of U.S. exports and 42 percent of China's cotton imports. 
China's cotton imports can vary greatly due to their domestic policies 
and import controls. In many years, China's WTO required tariff rate 
quota has been insufficient relative to their domestic cotton 
production and demand in their textile industry.

    As you know, our cotton producers are struggling financially due to 
high production costs and low prices for both cotton lint and seed. 
Growing demand for U.S. cotton and addressing the policy limitations on 
exports can help address some of these challenging economic conditions.

    Can I have your commitment to work with Ambassador Lighthizer and 
others in the administration to pursue an increase in China's cotton 
imports by adjusting the tariff rate quota level?

    Answer. I understand the importance of this issue to U.S. cotton 
producers. I am aware that, in past years, U.S. producers exported 
large amounts of cotton to China at a low duty rate, and that more 
recently China's imports have been limited to the amount in its WTO 
tariff-rate quota. If confirmed, I will undertake efforts, along with 
Ambassador Lighthizer and others in the administration, to pursue an 
increase in China's cotton imports at low tariff levels.

                                 ______
                                 
             Questions Submitted by Hon. Patrick J. Toomey
    Question. As you know, the U.S. Commerce Department announced new 
suspension agreements earlier this year to further restrict the amount 
of sugar imported from Mexico. These agreements are a terrible deal for 
American consumers and food manufacturers and only benefit several 
hand-picked sugar companies. Despite higher prices for Mexican sugar, 
the United States continues to be a net importer of sugar because 
domestic growers and refiners cannot produce enough sugar to satisfy 
demand. Although the United States imports roughly 1.5 million tons of 
sugar each year, a shortfall still exists, and our country must 
increase the amount of sugar imported from other countries.

    Do you acknowledge that the United States must increase sugar 
imports from other countries to meet the demands of American consumers 
and food manufacturers? If confirmed, will you seek provisions in NAFTA 
to ensure that American food manufacturers have adequate access to 
foreign sugar? Will you consider increasing Canada's tariff-rate quota 
for sugar, which is similar to a proposal that was included in the 
Trans-Pacific Partnership?

    Answer. I understand your concerns about access to adequate sugar 
supplies in the American market. As you are aware, authority over sugar 
imports is divided between USTR and the U.S. Department of Agriculture 
(USDA). If confirmed, I commit to work closely with you, other members 
of Congress, USDA, and stakeholders--including sugar growers, refiners 
and confectionary producers--to ensure that any concerns about the 
availability of sugar are addressed in the best way possible.

    Question. The U.S.-Korea Free Trade Agreement (KORUS) has opened 
new export opportunities for farmers and food processors in 
Pennsylvania. South Korea is the sixth largest agricultural market for 
Pennsylvania, purchasing $57 million in agriculture exports in 2016, 
including chocolate and cocoa products, dairy, and pork to name just a 
few. KORUS also received wide bipartisan support when Congress approved 
the agreement in 2012.

    I have heard from many Pennsylvania farmers, who are concerned 
about the United States withdrawing from KORUS and losing market 
opportunities to sell their products abroad.

    If confirmed, what steps will you take to ensure that the United 
States does not withdraw from KORUS? What modifications to the 
agreement do you see as realistic to ensure that withdrawal does not 
occur?

    Answer. I know that South Korea is a very important market for U.S. 
farmers and ranchers. I understand that USTR has held two special 
sessions of the Joint Committee under KORUS to try to address 
outstanding implementation-related concerns, to consider possible 
amendments and modifications, and to address the trade imbalance. If 
confirmed, I look forward to consulting and working with you and your 
colleagues on future engagement with Korea and to bring quick 
resolution to these areas.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. This administration, including the Office of the U.S. 
Trade Representative, has fallen short on transparency and 
consultations with Congress, stakeholders, and the public. Getting more 
transparency in our trade policy has been a top priority for me. We 
won't end up with trade deals that benefit all Americans if we can't 
talk about proposals at town halls. That is why I insisted on new 
requirements to raise the bar when it comes to transparency.

    If confirmed, do you commit to consulting closely with Congress and 
follow the letter and spirit of all transparency and consultations 
requirements established by the Trade Promotion Authority bill Congress 
passed in 2015 (including the Guidelines on Transparency and Public 
Engagement issued by USTR in October 2015) and the enforcement bill 
passed in 2016?

    Answer. If confirmed, I commit to following the consultation 
requirements required by law and to follow the Guidelines on 
Transparency and Public Engagement issued by USTR in October 2015.

    Question. The European Union has aggressively pursued the misuse of 
geographical indications for food products in third countries to block 
competition from the United States. This policy inappropriately covers 
generic terms for products that the United States would otherwise 
competitively export to those products. Currently, discussions between 
the EU and Mexico and Japan pose a significant threat to U.S. 
producers.

    What will you do to counter EU efforts in those countries, as well 
as other international markets?

    Answer. I understand that the United States and the EU have long-
standing differences over policies regarding geographical indications 
(GIs). I understand that these long-standing differences include what 
bearing an international standard has on a determination of whether a 
food name is a common name and thus not protectable as a GI. If 
confirmed, I will continue to raise strong concerns regarding the 
impact of the EU's GI policies on market access for U.S. owners of 
trademarks and U.S. producers and traders using common food names.

    Question. The President has suggested from time to time that the 
United States should withdraw from NAFTA and, more recently, the U.S.-
Korea trade agreement. Talks are underway with respect to both 
agreements, but have not concluded.

    What impact would withdrawal from these trade agreements have on 
American exporters of agricultural products?

    Answer. NAFTA and the U.S.-Korea trade agreement remain important 
to American agriculture. The impact of withdrawing from these 
agreements is difficult to ascertain. If confirmed, I commit to work 
closely with Congress and stakeholders, including agriculture 
stakeholders to improve upon these agreements and open new markets for 
American agriculture.

    Question. Several of Canada's provinces maintain an array of 
discriminatory restrictions on the sale and distribution of imported 
wine, which directly impact producers in Oregon. The last 
administration requested consultations at the World Trade Organization 
related to some of those restrictions, and USTR recently updated that 
request. I have been disappointed in the delay in moving this dispute 
forward.

    If confirmed, do you commit to aggressively pursuing these 
practices, both through dispute settlement, as well as in the NAFTA 
renegotiation discussions?

    Answer. I understand the U.S. wine industry has serious concerns 
with policies restricting sales of U.S. wine in Canada. The Trump 
administration recently requested WTO dispute consultations on British 
Columbia's revised regulations on retail sale of wine in grocery 
stores. If confirmed, I will work to determine the most effective path 
forward to address any regulations that may be harming our wine 
exports.

    Question. How important in your view is it to U.S. farmers that WTO 
members comply with their obligations under the agreements and how does 
the current system of dispute settlement contribute to compliance?

    Answer. The Trump administration is committed to focusing on strong 
enforcement and using the full range of U.S. trade policy and 
enforcement tools, including WTO dispute settlement, to benefit U.S. 
agriculture. If confirmed, I will fully support that enforcement focus. 
USTR and USDA work hard every day to resolve unfair trade barriers to 
U.S. agricultural exports, and many of those barriers are resolved 
because of those efforts. USTR is also currently pursuing multiple WTO 
disputes challenging agricultural trade barriers. These enforcement 
efforts are to ensure that our trading partners respect WTO rules and 
U.S. farmers and ranchers are able to compete on a level playing field 
with all WTO member countries.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. Michigan is the second most agriculturally diverse State, 
producing over 300 different kinds of commodities. In negotiations with 
our trading partners, it's often the case that the interests of one 
agricultural commodity are pitted against the needs of another.

    If you are confirmed, how will you balance the interests of all 
crops, including specialty crops? How will you prioritize the trade 
interests of different commodities?

    Answer. If confirmed, I will work to expand exports of all types of 
agricultural products from all regions of the United States.

    Question. In May, Chairman Roberts and I wrote a letter to 
Secretary Perdue and Ambassador Lighthizer urging them to engage with 
their counterparts in Canada about Canada's National Ingredient 
Strategy for dairy, which is displacing U.S. exports of ultra-filtered 
milk. I remain concerned about this policy change and the further 
impact it could have on world prices and U.S. producers.

    If you are confirmed, will you commit to work with USDA to resolve 
these concerns about Canada's changes to their dairy pricing policies? 
Will you commit to keeping my staff updated about the actions USTR is 
taking to address this issue?

    Answer. I know these are critical issues for our dairy farmers and 
I will work with members of Congress, USDA, and the U.S. dairy industry 
to address these issues if confirmed.

    Question. As we discussed previously, the United States was a net 
exporter of cherries until 2002, but a flood of cheap imports from 
Turkey, Poland, and Hungary in recent years is now threatening to put 
U.S. producers out of business.

    If confirmed, will you commit to working with me and meeting with 
representatives of Michigan's cherry industry to examine all options to 
address these issues?

    Answer. If confirmed, I look forward to working with you, cherry 
producers, and industry representatives on this issue.

    Question. Michigan asparagus growers have been struggling with 
dumping from Mexico and Peru for several years. Michigan ranks #2 in 
asparagus production, but imports of fresh asparagus tripled between 
1990 and 2010, while acres of asparagus planted in Michigan shrank by 
more than half over the same period.

    If confirmed, will you commit to working with me and meeting with 
representatives of Michigan's asparagus industry to examine all options 
to address this issue?

    Answer. If confirmed, I will look into this matter and I look 
forward to working with you to ensure that asparagus producers in 
Michigan have the ability to compete on a level playing field in both 
the domestic and international marketplace.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. In Washington State, the dairy industry contributes more 
than $5 billion a year in combined total economic activity and is 
responsible for more than 18,000 jobs. Our largest cooperative in the 
State has almost 500 farmer member owners and is the 2nd largest 
private employer in my State.

    They understand--like so many Washington companies do--the 
importance of global markets since more than 40 percent of their 
farmers' milk is exported to over 20 countries around the world. Those 
sales are now being put at risk by those Canadian pricing regulations--
called Class 7--that were implemented earlier this year.

    Washington's dairy farmers and the manufacturing workers that turn 
their milk into finished products exported around the world compete on 
a commercial basis on global markets; they cannot risk having that 
upended by this new Canadian government policy that allows its high-
price and highly sheltered industry to offload commodity products onto 
those markets at fire-sale prices.

    This program adds insult to injury since our highly competitive 
dairy sector can't ship its products north of the border due to 
Canada's 200-300% tariffs on most dairy products.

    What steps will the administration take to deal with both the 
tariff barriers and nontariff problems distorting the U.S./Canadian 
dairy trade?

    Answer. I understand Canada maintains strict limits on imports of 
dairy products and know it is important to obtain new access to the 
Canadian market through NAFTA renegotiation. Additionally, I understand 
that Class 7 pricing is a critical issue for our dairy farmers and, if 
confirmed, I will work to address this issue. If confirmed, I will 
consult with U.S. industry representatives and members of Congress, 
consistent with Trade Promotion Authority, on the United States' 
approach to the ongoing NAFTA negotiations.

                                 ______
                                 
              Questions Submitted by Hon. Robert P. Casey
    Question. Mr. Doud, I am very concerned about potential changes to 
how antidumping and countervailing duties are assessed which could have 
a significant impact on Pennsylvania producers. Further I am troubled 
there was not significant consultation with congressional stakeholders 
prior to proposing this change.

    Will you commit to thorough consultation with Congress prior to 
tabling and closing measures pertaining to agriculture in any trade 
negotiation?

    Answer. If confirmed, I will comply with the Bipartisan 
Congressional Trade Priorities and Accountability Act of 2015 (TPA) to 
consult with Congress on all trade negotiations pertaining to 
agriculture.

    Question. Mr. Doud, Please discuss how you will engage outside 
stakeholders, Federal agencies and Congress should an issue arise in a 
trade negotiation, bilateral or multilateral engagement that may 
benefit some commodity stakeholders but harm others.

    Answer. To negotiate any agreement one has to have a full and 
detailed understanding of the issue and the interests of all 
stakeholders--outside stakeholders, U.S. Federal agencies and of course 
Congress. As a former cleared advisor and Senior Professional Staff 
Member in the Senate, I have seen firsthand the importance of 
consultations with Congress and stakeholders. I fully intend to have 
robust consultations with all stakeholders, including USTR's trade 
advisors, other agencies and Congress, in developing positions for 
trade negotiations. My job is to expand exports for all food and 
agricultural products.

    Question. Mr. Doud, trade is critically important to the 
agricultural economy. Canada and Mexico are major export markets for 
the U.S. diary sector, which is a significant industry in my State. I 
am concerned changes in Canadian policies are displacing U.S. exports. 
I am equally concerned about maintaining U.S. market access to Mexico.

    How will you ensure that Canada abides by the terms of NAFTA with 
respect to dairy trade?

    What will you do to ensure that U.S. dairy producers continue to 
have strong access to the Mexican market?

    Do you view expanded dairy access as a priority in the NAFTA 
renegotiation?

    Please discuss how you intend to engage with the Canadians on 
expanded dairy access?

    Answer. I understand Canada maintains strict limits on imports of 
dairy products and know it is important to obtain new access to the 
Canadian market through NAFTA renegotiation. The administration is 
committed to maintaining the markets that our agricultural sectors 
have, including to Mexico, and creating opportunities to expand 
exports. If confirmed, I will consult with U.S. industry and members of 
Congress, consistent with Trade Promotion Authority, on the United 
States' approach to the on-going NAFTA negotiations.

                                 ______
                                 
 Prepared Statement of Jeffrey Gerrish, Nominated to be Deputy United 
  States Trade Representative for Asia, Europe, the Middle East, and 
  Industrial Competitiveness, With the Rank of Ambassador, Executive 
                        Office of the President
    Chairman Hatch, Ranking Member Wyden, and distinguished members of 
the Senate Finance Committee, it is a great honor for me to appear 
before you today. I feel both privileged and humbled to have been 
recommended by Ambassador Lighthizer and nominated by President Trump 
to serve as Deputy United States Trade Representative.

    I would like to take a moment first to thank my wife Kelly and our 
three children Jacob, Kate, and Grace. They have been a constant source 
of inspiration, strength, and support for me throughout my career, and 
I would not be where I am today without them. I would also like to 
thank the incredible mentors and role models I have had over the years, 
including Ambassador Lighthizer and my friend and former partner, John 
Mangan, who is here with us today. I have been blessed with the 
opportunity to work with and learn from many immensely talented 
individuals, and I am truly grateful for that.

    In addition, I would like to express my thanks to the members and 
staff that I have been able to visit with over the past couple of 
months. If confirmed, I look forward to working with you on the 
critical trade issues facing our great country.

    To give you a little background about me, I grew up in a city by 
the name of Troy in upstate New York. Troy used to be a manufacturing 
town, with steel and then textiles the primary goods produced there. 
The manufacturing is gone now and the city has faced difficult times, 
but the people of Troy remain as fundamentally decent, down-to-earth, 
and hard working as any you will find. I was taught the value of a 
strong work ethic from an early age by my parents and grandparents and 
others in my hometown, and that virtue has remained with me and served 
me well in every single thing I have done.

    For almost 20 years, I have practiced international trade law. Over 
that time, I have worked extensively on behalf of U.S. manufacturers in 
seeking to combat unfair trade in this market, the massive subsidies 
and trade distorting industrial policies employed by countries around 
the world, and the challenge of global overcapacity facing a number of 
industries. I have fought for strong enforcement of our trade laws and 
to preserve U.S. policies at the World Trade Organization and other 
international bodies. My work has also entailed assisting American 
companies that have been improperly denied access to other markets 
around the world. Through my work, I know first-hand the problems that 
unfair trade can cause but also the opportunities that trade can 
present for U.S. companies.

    My experience has clearly demonstrated to me that we need a trade 
policy that puts America first. This does not mean closing ourselves 
off from the rest of the world. It simply means putting American 
manufacturers, workers, farmers, ranchers, and service providers first 
in everything we do in the trade arena. It means negotiating stronger 
and more effective trade agreements and ensuring that the trade 
agreements we have are properly enforced and applied in the manner 
originally intended. We must aggressively and effectively apply our 
trade laws to counteract unfair trade practices and work with like-
minded trading partners to defend the use of such trade laws and to 
address the enormous overcapacity problem plaguing our steel, aluminum, 
and other industries. For our creators and innovators, it means 
promoting greater intellectual property protection and enforcement 
among our trading partners. It is absolutely critical that we protect 
American companies' intellectual property, which is one of our greatest 
assets.

    If confirmed, I hope to work with this committee, others in 
Congress, those in the administration, and all interested parties to 
craft and implement a trade policy that increases trade and spurs 
economic growth but does so in a way that promotes fair and reciprocal 
trade that benefits all segments of our economy. The trade issues 
confronting the United States are numerous and daunting, and I would 
welcome the opportunity to work with you in tackling them. If 
confirmed, I promise you that I will bring my strong international 
trade experience to bear and will work tirelessly to achieve the best 
possible results for your constituents and the country.

    Thank you for your consideration, and I would be happy to answer 
any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Jeffrey David Gerrish.

 2.  Position to which nominated: Deputy United States Trade 
Representative.

 3.  Date of nomination: June 15, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: June 4, 1969 in Troy, New York.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

     Boston University, September 1987 to May 1989.

     State University of New York at Albany, September 1989 to May 
1991, BA (May 1991).

     Duke University School of Law, August 1991 to May 1994, JD (May 
1994).

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     Maynard, O'Connor, and Smith, scheduling assistant, Albany, NY, 
Summer 1991.

     Law Office of Marie Sykes, summer associate, Durham, NC, Summer 
1992.

     U.S. Small Business Administration, legal intern, Washington, DC, 
Summer 1993.

     Law Office of Robert Seidel, associate, Durham, NC, July 1994 to 
January 1995.

     Tobin and Dempf, associate, Albany, NY, January 1995 to March 
1998.

     Skadden, Arps, Slate, Meagher, and Flom LLP, associate, March 1998 
to August 1999.

     Arnold and Porter, associate, August 1999 to April 2000.

     Skadden, Arps, Slate, Meagher, and Flom LLP, associate, April 2000 
to May 2004.

     Skadden, Arps, Slate, Meagher, and Flom LLP, counsel, May 2004 to 
April 2007.

     Skadden, Arps, Slate, Meagher, and Flom LLP, partner, April 2007 
to present.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

     Member of the Rules Advisory Committee for the U.S. Court of 
International Trade, 2008 to present.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

     Partner, Skadden, Arps, Slate, Meagher, and Flom LLP.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     Member of Mount Vernon Country Club.

     Member of the Rules Advisory Committee for the U.S. Court of 
International Trade.

     Board member and co-chair of the International Trade Committee for 
the Customs and International Trade Bar Association.

     Member of the District of Columbia, New York, and North Carolina 
bars.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       None.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       None.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     Phi Beta Kappa.

     United States Law Week Award.

     Repeatedly selected for inclusion in The Best Lawyers in America.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

     ``U.S. Court of International Trade Overview: Non-Market Economy 
Cases in 2012,'' Georgetown Journal of International Law, vol. 45, no. 
1, 2013.

     ``Protecting the Right to Judicial Review in Trade Remedy Cases: 
Preliminary Injunctions and the Impact of Recent Court Decisions,'' 
Tulane Journal of International and Comparative Law, vol. 19, no. 2, 
2011.

     ``International Trade,'' The International Lawyer, vol. 38, no. 2, 
2004.

     ``OFAC and BIS Implement Additional Amendments in Support of Cuba 
Policy Shift,'' Skadden, Arps, Slate, Meagher, and Flom LLP client 
mailing, October 28, 2016.

     ``U.S. Implements Regulation Changes for Encryption Products, 
Software, and Technology,'' Skadden, Arps, Slate, Meagher, and Flom LLP 
client mailing, September 29, 2016.

     ``Interim Regulations Issued on Investigations of Evasion of Anti-
Dumping and Countervailing Duties,'' Skadden, Arps, Slate, Meagher, and 
Flom LLP client mailing, September 21, 2016.

     ``Insights Conversations: Developments in U.S. Export Controls,'' 
Westlaw Journal Government Contract, May 23, 2016.

     ``U.S. Further Eases Sanctions Ahead of President's Historic Trip 
to Cuba,'' Skadden, Arps, Slate, Meagher, and Flom LLP client mailing, 
March 17, 2016.

     ``OFAC and BIS Ease Cuba Restrictions With New Amendments,'' 
Skadden, Arps, Slate, Meagher, and Flom LLP client mailing, February 5, 
2016.

     `` `Implementation Day': Key Aspects of U.S. and EU Implementation 
of Iran Sanctions Relief,'' Skadden, Arps, Slate, Meagher, and Flom LLP 
client mailing, January 28, 2016.

     ``Insights Conversations: Developments in U.S. Export Controls,'' 
Skadden's 2016 Insights--Regulatory Developments, January 2016.

     ``Key Takeaways: The Latest Developments in U.S. Export Controls--
Export Control Reform and Compliance Strategies,'' Skadden, Arps, 
Slate, Meagher, and Flom LLP client mailing, November 11, 2015.

     ``OFAC and BIS Further Ease Cuba Restrictions,'' Skadden, Arps, 
Slate, Meagher, and Flom LLP client mailing, September 29, 2015.

     ``Agencies Propose Expanding U.S. Export Controls on Cameras, 
Night Vision Equipment, and Sensing Technology,'' Skadden, Arps, Slate, 
Meagher, and Flom LLP client mailing, May 21, 2015.

     ``What Every General Counsel Needs to Know to Comply With New BEA 
Reporting Requirements,'' Skadden, Arps, Slate, Meagher, and Flom LLP 
client mailing, April 13, 2015.

     ``Department of Energy Announces Significant Changes to the U.S. 
Controls on Exports of Unclassified Nuclear Technology and 
Assistance,'' Skadden, Arps, Slate, Meagher, and Flom LLP client 
mailing, March 17, 2015.

     ``New Reporting Requirements Planned for U.S. Financial Services 
Providers Doing Business With Non-U.S. Persons,'' Skadden, Arps, Slate, 
Meagher, and Flom LLP client mailing, March 2, 2015.

     ``OFAC and BIS Implement Changes in Cuba Policy,'' Skadden, Arps, 
Slate, Meagher, and Flom LLP client mailing, January 20, 2015.

     ``Important but Frequently Overlooked Reporting Requirements for 
Inbound and Outbound Direct Investment Involving U.S. Entities,'' 
Skadden, Arps, Slate, Meagher, and Flom LLP client mailing, January 16, 
2015.

     ``Expansion of Military End-Use Controls Creates Potential 
Pitfalls for Exporters,'' Skadden, Arps, Slate, Meagher, and Flom LLP 
client mailing, November 13, 2014.

     ``Federal Circuit Decision Underscores the Importance of Customs 
Compliance for All Parties to an Import Transaction,'' Skadden, Arps, 
Slate, Meagher, and Flom LLP client mailing, September 23, 2014.

     ``U.S. Imposes New Licensing Requirements on Exports to Russia of 
Oil and Gas Equipment and `Dual-Use' Items,'' Skadden, Arps, Slate, 
Meagher, and Flom LLP client mailing, August 15, 2014.

     ``Latest U.S. Export Control Reforms Impact Companies in the 
Military Electronics Industry,'' Skadden, Arps, Slate, Meagher, and 
Flom LLP client mailing, July 10, 2014.

     ``U.S. Government Announces Reforms to Space and Satellite Systems 
Export Controls,'' Skadden, Arps, Slate, Meagher, and Flom LLP client 
mailing, May 13, 2014.

     ``An Update on Economic Sanctions Related to Events in Ukraine,'' 
Skadden, Arps, Slate, Meagher, and Flom LLP client mailing, May 7, 
2014.

     ``U.S. Government Announces Ban on High-Technology Exports to 
Russia and Crimea,'' Skadden, Arps, Slate, Meagher, and Flom LLP client 
mailing, May 2, 2014.

     ``U.S. Government Halts Licensing for Key Exports to Russia in 
Response to Events in Ukraine,'' Skadden, Arps, Slate, Meagher, and 
Flom LLP client mailing, April 4, 2014.

     ``Negotiations for New International Services Trade Agreement 
Offer Business Opportunities,'' Skadden, Arps, Slate, Meagher, and Flom 
LLP client mailing, February 4, 2013.

     ``U.S. Challenges China's Automobile and Auto Parts Export 
Policies at the WTO,'' Skadden, Arps, Slate, Meagher, and Flom LLP 
client mailing, October 23, 2012.

     ``How H.R. 1905 Further Hobbles Business With Iran,'' Law360, 
August 15, 2012.

     ``New Sanctions Against Iran: President Obama Signs the Iran 
Threat Reduction and Syria Human Rights Act of 2012,'' Skadden, Arps, 
Slate, Meagher, and Flom LLP client mailing, August 14, 2012.

     ``U.S. Conditionally Suspends Two Key Economic Sanctions Against 
Burma,'' Skadden, Arps, Slate, Meagher, and Flom LLP client mailing, 
July 17, 2012.

     ``Takeaways From United Technologies' $75M Settlement,'' Law360, 
July 10, 2012.

     ``United Technologies Corporation and Subsidiaries Agree to a $75 
Million-Plus Settlement of Export Control Violations,'' Skadden, Arps, 
Slate, Meagher, and Flom LLP client mailing, July 5, 2012.

     ``Export Control Reform Initiative: Transition Rules,'' Skadden, 
Arps, Slate, Meagher, and Flom LLP client mailing, June 28, 2012.

     ``New Sanctions Against Iran: President Obama Signs the 
Comprehensive Iran Sanctions, Accountability, and Divestment Act of 
2010, and the United Nations and the European Union Announce New 
Sanctions Against Iran,'' Skadden, Arps, Slate, Meagher, and Flom LLP 
client mailing, July 8, 2010.

     ``Proposed Rule to Establish Export License Exception for Intra-
Company Transfers,'' Skadden, Arps, Slate, Meagher, and Flom LLP client 
mailing, October 10, 2008.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

     None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     I have practiced international trade law for approximately 19 
years and have extensive experience in and knowledge of many of the 
areas within the responsibility of the U.S. Trade Representative's 
Office.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

     No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

     Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     None.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     Any such potential conflict of interest is addressed in and 
resolved by my ethics agreement with the Office of the United States 
Trade Representative.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     I was registered as a lobbyist for United States Steel Corporation 
(``U.S. Steel'') from the 4th quarter of 2007 to the 1st quarter of 
2009 and from the 4th quarter of 2014 to the 2nd quarter of 2016. On 
behalf of U.S. Steel, I performed legal research, drafted memoranda, 
and met with congressional staff and other U.S. Government officials in 
an effort to maintain and strengthen U.S. trade laws.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

     I am entering into an ethics agreement with the Office of the 
United States Trade Representative.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

     Submitted.

 6.  The following information is to be provided only by nominees to 
the positions of United States Trade Representative and Deputy United 
States Trade Representative.

     Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

     In February and March 2003, I performed research and prepared a 
memo for the Government of Bermuda regarding the application of the 
World Trade Organization agreements to Bermuda. I billed 70.5 hours to 
this matter.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

     No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

     In approximately October 1988 (when I was 19 years old), I was 
arrested in Weston, MA for the offense of transportation of alcohol by 
a minor. Three friends and I were driving around looking for a party. 
We were pulled over by the police after we became lost and 
inadvertently turned down a private road. After we were pulled over, we 
were all arrested for transportation of alcohol by a minor because we 
had either a 6-pack or 12-pack of beer in the car. The 6-pack or 12-
pack of beer was not opened. I was not driving the car, and none of us 
had been drinking. I appeared before the court (which I believe was the 
Waltham District Court in Waltham, MA) on one occasion, and my 
understanding is that the charge was dropped as long as I did not have 
any additional problems for a 6-month period. I did not have any 
additional problems.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

     No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

     Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

     Yes.

                                 ______
                                 
         Questions Submitted for the Record to Jeffrey Gerrish
               Questions Submitted by Hon. Orrin G. Hatch
    Question. I am growing increasingly concerned that several 
proposals the administration may be considering for NAFTA will 
undermine the certainty U.S. businesses, investors, and exporters need 
to take advantage of the agreement.

    Do you agree that trade agreements will only benefit American 
businesses, investors, farmers, and ranchers if they provide certainty 
and stability?

    Answer. There are many factors that determine whether a trade 
agreement benefits America. If confirmed, I will work with you and 
other members of Congress to ensure that our workers and producers 
continue to benefit from our trade policy.

    Question. Intellectual property and innovation drive productivity, 
employment, and economic growth in the United States. The United States 
Patent and Trademark Office reports that IP-intensive industries are 
responsible for 45.5 million American jobs, nearly 30 percent of the 
American workforce, and that wages in the sector are 46 percent higher 
than outside the sector. If the Trump administration wants trade deals 
that create high-paying jobs at home, then U.S. FTAs must provide an 
environment that supports intellectual property rights and innovation.

    How will you ensure that any U.S. free trade agreements provide 
strong protection for IP-intensive industries, as required by TPA?

    Answer. I believe that innovation is key to our comparative 
advantage in many sectors. If confirmed, I will work to ensure that 
free trade agreements provide for U.S. rights holders to have a full 
and fair opportunity to use and profit from their intellectual property 
rights. Ensuring strong intellectual property protection and 
enforcement by our trading partners will be a top trade priority.

    Question. We are doing far too little to address one of President 
Trump's highest priorities: combating the predatory treatment U.S. 
businesses and workers receive at the hands of China.

    In your view, which country's trade practices are doing the most 
harm to U.S. businesses and workers, and if confirmed, how do you plan 
to address those practices?

    Answer. The President has made clear that we need to restore 
balance to the U.S.-China trade relationship, and that means reducing 
our very large bilateral trade deficit and ensuring that trade is 
freer, fairer, and balanced for America. China, by far, poses the 
greatest risk to our economy due to its unfair trade practices and 
distortive economic policy. If I am confirmed, I will look at how I can 
best work to ensure that our engagement with China is effective and 
results-oriented.

               Question Submitted by Hon. Michael B. Enzi
    Question. The U.S. soda ash industry is a shining example of U.S. 
competitiveness in manufacturing. The U.S. industry is the most 
environmentally friendly of its kind in the world due to our unique 
natural deposits of trona in Wyoming. The industry exports over $1 
billion annually, over half its total output. The U.S. soda ash 
industry, however, faces stiff barriers in the global marketplace.

    For example, U.S. soda ash exports face tariffs that range from 3.3 
percent to 11 percent in key growth markets, as well as several non-
tariff barriers.

    As the Deputy USTR whose portfolio includes industrial 
competitiveness, will you commit to strengthening the competitiveness 
of the U.S. soda ash industry by lowering tariff and non-tariff 
barriers in foreign markets?

    Answer. U.S. soda ash exporters are among the most competitive in 
the world, and export markets are essential to the health of the 
industry. Most other countries competing for soda ash markets have much 
more environmentally harmful production methods. If confirmed, I will 
work to remove barriers to U.S. soda ash exports, particularly unfair 
and distortive non-tariff barriers, but also tariffs.

                                 ______
                                 
                Questions Submitted by Hon. John Cornyn
    Question. Following up on a letter I co-signed with 15 other 
Senators last month, I am concerned that American financial services 
providers still face significant market access barriers and level 
playing field issues in China. For example, insurance and pension 
providers face a situation where Chinese insurance firms are actively 
expanding into foreign markets, including the United States, where they 
face no equity caps, for example; where by contrast, China maintains a 
specific 50% equity cap for this sector, but is home to the world's 
largest insurer and where 95 percent of market share belongs to 
domestic providers. A similar picture exists, with corresponding equity 
caps, with respect to China's banking and securities sectors. Removal 
of the equity caps and other restrictions on foreign ownership of most 
Chinese financial services companies will build more confidence in the 
investment climate in China, and greater market access for U.S. 
insurers and reinsurers will lead to increased financial stability and 
diversification of local risks to the global economy.

    Do you see this issue as a key priority for USTR and the United 
States moving forward as part of the U.S.-China Comprehensive Economic 
Dialogue?

    Answer. I recognize the importance of removing China's foreign 
equity cap for life and pensions insurance and foreign equity caps for 
other financial services, such as securities services, for U.S. 
companies that wish to provide financial services in China. If 
confirmed, I will work to use all possible avenues, including high-
level discussions, to raise U.S. concerns with China and to endeavor to 
fully open China's market for financial services.

    Question. I firmly believe that a modernized NAFTA agreement must 
be negotiated in a manner that will grow America's competitiveness and 
sustain and grow American jobs. Congress has laid out detailed 
objectives to achieve those outcomes in TPA. Thus far, I am concerned, 
and have heard increasing concerns across every sector of the economy--
from energy and manufacturing to agriculture and services--that the 
administration is developing and putting forward proposals, in a number 
of key areas, such as investor-state dispute settlement, rules of 
origin and government procurement, which may undermine U.S. 
competitiveness.

    If confirmed, do you intend to continue consulting with the 
relevant committees of jurisdiction on these issues and propose items 
that are fully consistent with Congress's direction?

    Answer. If confirmed, I intend to consult with the relevant 
committees of jurisdiction on issues that fall under my purview to 
ensure all views are both heard and considered as the negotiation 
continues to move forward.

    Question. NAFTA modernization presents a real opportunity for 
companies whose business models had not been invented or had fully 
evolved when the original agreement was negotiated. There is some 
concern that the administration will not fight for their digital 
priorities in the negotiations, including provisions to facilitate e-
commerce shipments, protect against data flow restrictions and data 
localization requirements, and require liability protections consistent 
with U.S. law.

    Can you please elaborate on your stance on these important issues 
and will you commit to pushing for the inclusion of these provisions in 
a final agreement?

    Answer. I can assure you that I recognize the importance of the 
digital economy to American jobs, prosperity and security, as well as 
U.S. companies' unique competitive advantages in this area. Addressing 
the specific issues that you have identified, including restrictions on 
cross-border data flows and data localization measures, in all sectors 
of the economy, will be important to preserve U.S. firms' international 
competitiveness. If confirmed, I will work both with my colleagues at 
USTR, as well as across agencies, to ensure the U.S. companies maintain 
their advantage.

                                 ______
                                 
             Questions Submitted by Hon. Patrick J. Toomey
    Question. Canada and Mexico represent the two largest foreign 
markets for 
Pennsylvania-made products, accounting for $13.6 billion in exported 
goods during 2016. In light of the ongoing NAFTA negotiations, I am 
hopeful that Ambassador Lighthizer will reach a deal that will allow 
the United States to continue the free trade of goods and services 
throughout North America. However, I am concerned about a recent 
proposal to include a sunset clause in NAFTA--in which the agreement 
would terminate after 5 years unless all three parties agree it should 
continue. Certainty and stability are vital to our trade relationships 
in order to create a pro-investment environment that fosters economic 
growth and job creation. A sunset clause would achieve neither.

    Do you believe that a sunset clause in NAFTA will promote economic 
growth and create the business confidence needed to foster investment 
in job-creating industries? What economic benefits do you see from a 
sunset provision? If confirmed, will you oppose the inclusion of such a 
mechanism in NAFTA?

    Answer. I have not been involved in NAFTA negotiations and have not 
reviewed the text. If confirmed, I will work with and advise Ambassador 
Lighthizer as he sees fit regarding these issues, and I will work with 
you and other members of Congress to ensure that our workers and 
producers continue to benefit from our trade policy.

    Question. I have heard from businesses across Pennsylvania about 
the importance of maintaining strong investor-state dispute settlement 
(ISDS) provisions in NAFTA. ISDS procedures ensure that other countries 
treat U.S. investors fairly, do not seize their property without 
compensation, and do not impose forced localization requirements that 
compel jobs to be shipped overseas. In a recent letter to several 
Cabinet-level officials, the U.S. Chamber of Commerce, National 
Association of Manufacturers, and Business Roundtable wrote that 
``attempts to eliminate or weaken ISDS will harm American businesses 
and workers and, as a consequence, will serve to undermine business 
community support for the NAFTA modernization negotiations.'' ISDS 
provisions are necessary to ensure that U.S. businesses and their 
employees are protected from unpredictable action overseas.

    The administration is said to be proposing an opt-in clause that 
would allow the United States to avoid being subject to ISDS while 
Mexico and Canada may still be motivated to accept it.

    Do you support the inclusion of an opt-in clause in NAFTA? If yes, 
how will this benefit U.S. firms operating in other countries, 
especially when a significant portion of the business community opposes 
this proposal? If no, how will you advocate for strong ISDS provisions 
when discussing the issue with other administration officials?

    Answer. I have not been involved in NAFTA negotiations and have not 
reviewed the text. If confirmed, I will work with and advise Ambassador 
Lighthizer as he sees fit regarding these issues.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. Mr. Gerrish, you have worked on trade enforcement for the 
steel industry for years and will be responsible for industry-related 
issues in your capacity as Deputy USTR, including talks at the OECD 
designed to address steel overcapacity. Recently, Secretary Ross said 
that the decision had been made to delay the section 232 investigation 
into whether steel imports are threatening our national security until 
after tax reform. USTR is part of the interagency group that advises 
the President on the section 232 proceeding, and you have been 
nominated to advise on U.S. trade policies related to industrial 
competitiveness, including with respect to steel.

    Do you agree with the Secretary that the section 232 investigation 
should be delayed?

    What impact does delay have on U.S. industry?

    Answer. The current global overcapacity situation in the steel and 
aluminum industry is having a detrimental impact on U.S. workers and 
industries. At the core of this issue is China's non-market economy 
system, which is creating global oversupply and excess capacity in 
these and other sectors.

    Regarding Commerce's investigation on steel imports under section 
232 of the Trade Expansion Act of 1962, I understand that Commerce has 
270 days to deliver its report and any recommendations to the 
President. I cannot engage in speculation about the potential impact 
that timing of results in this investigation may have on the U.S. 
domestic stakeholders, as Commerce has not yet concluded its 
investigation and I have not been included in these discussions.

    Question. The President has suggested from time to time that the 
United States should withdraw from NAFTA and, more recently, the U.S.-
Korea trade agreement. Talks are underway with respect to both 
agreements, but have not concluded.

    What impact would withdrawal from these trade agreements have on 
American exporters of manufactured goods?

    Answer. Our free trade agreement with Korea has been a 
disappointment. By the end of 2016 our deficit in goods with Korea had 
more than doubled since the agreement went into effect. And, our 
combined goods and services deficit with Korea had nearly tripled. Our 
large autos trade imbalance with Korea is a particular concern and 
requires a comprehensive approach to resolve. If confirmed, I will make 
this a top priority in our bilateral engagement and I will fight to 
correct this long-term imbalance--starting with making sure all 
barriers are removed for U.S. manufacturing exports to Korea.

    Question. This administration, including the Office of the U.S. 
Trade Representative, has fallen short on transparency and 
consultations with Congress, stakeholders and the public. Getting more 
transparency in our trade policy has been a top priority for me. We 
won't end up with trade deals that benefit all Americans if we can't 
talk about proposals at town halls. That is why I insisted on new 
requirements to raise the bar when it comes to transparency.

    If confirmed, do you commit to consulting closely with Congress and 
follow the letter and spirit of all transparency and consultations 
requirements established by the Trade Promotion Authority bill Congress 
passed in 2015 (including the Guidelines on Transparency and Public 
Engagement issued by USTR in October 2015) and the enforcement bill 
passed in 2016?

    Answer. If confirmed, I commit to following the consultation 
requirements required by law and to follow the Guidelines on 
Transparency and Public Engagement issued by USTR in October 2015.

    Question. The Generalized System of Preferences (GSP) program is 
scheduled to expire at the end of this year. I have long supported a 
robust GSP program as both an essential tool to lower cost for American 
manufacturing, as well as a key development tool for future trading 
partners.

    Do you support the extension of the GSP program through calendar 
year 2021?

    Answer. Yes, I support GSP reauthorization, although I believe 
there needs to be robust enforcement of the eligibility criteria, which 
is something that I understand the administration has indicated it 
committed to doing. I defer to Congress on the length of time of the 
renewal.

    Question. U.S. businesses face a host of barriers to trade and 
investment in China. In April, leadership of the Ways and Means and 
Senate Finance Committees highlighted some key priorities with respect 
to China in a bipartisan letter to the President in advance of his 
meeting with President Xi. Since that letter was sent, little progress 
has been made on the issues it identified, including: (1) policies that 
contribute to market distorting overcapacity; (2) discriminatory and 
distortive technology policies, such as data localization requirements 
and restrictions on cloud services providers; (3) weak IP protection, 
including economically motivated cyberattacks and lax protections 
against counterfeiting; (4) barriers to U.S. agriculture exports; (5) 
currency policies that are not based on market-determined exchange 
rates; and (6) retaliation against U.S. companies and general lack of 
transparency in China's legal regimes.

    Which of the above issues do you intend, if confirmed, to 
prioritize in discussions with China during the next 6 to 12 months, 
including as part of the Comprehensive Economic Dialogue?

    For each issue, please identify the specific tools that in your 
view are available to the administration to ensure progress with China 
and how you would, if confirmed, use those tools to address the 
concerns raised?

    Answer. We have numerous trade issues with China, including those 
you identified. In particular, with respect to excess capacity, China 
has expanded capacity in sectors like steel, aluminum and solar panels 
well beyond what market signals would have generated, and the resulting 
over-production has been causing serious harm to our industries and 
workers.

    China also has begun to pursue a range of problematic industrial 
policies, such as Made in China 2025, designed to create or accelerate 
artificially China's ability to become a manufacturing leader in 
several high technology, high value-added industries, like information 
technology, aviation, electric vehicles, and medical devices. China's 
policies provide preferences to Chinese technology and products and 
seek to acquire advanced technologies from other countries, often 
through unfair means. We need to protect our technology and ensure a 
level playing field and an open market in China. Intellectual property 
rights protection in China, of course, is another area of serious 
concern, as is agricultural market access.

    I am committed to the appropriate use of the full range of U.S. 
trade policy and enforcement tools to ensure progress in all of these 
areas. If confirmed, I look forward to working with you on these 
matters.

    Question. The European Union is one of the most important export 
markets for the United States. But, in too many areas, U.S. businesses 
and farmers face significant barriers to the EU market. The Obama 
administration had launched Transatlantic Trade and Investment 
Partnership negotiations with the EU to address those barriers.

    Do you support restarting those discussions, and how would you 
improve our trade relationship with the EU?

    Answer. The U.S.-EU economic relationship is a critical pillar of 
mutual prosperity and I believe it can become even stronger. I 
understand the administration is thinking carefully about T-TIP and on 
the question of whether, when, and how to move these trade negotiations 
forward. However, before a decision is made on whether to resume 
negotiations on a comprehensive trade agreement, we will want to be 
confident that there are promising paths to resolution of the most 
sensitive issues. For example, with a significant trade deficit in food 
and agriculture, the United States needs to substantially improve 
exports of U.S. food and agriculture to the EU. If confirmed, I look 
forward to consulting with Congress on these questions.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. If confirmed, you will be leading USTR's efforts in the 
Asia-Pacific region? What are your main priorities with respect to 
U.S.-China trade relations? Please be specific.

    How do you plan to counter China's unfair and harmful trade 
practices, particularly on intellectual property theft, subsidization 
of its domestic industries, and market access restrictions?

    How do you plan to address the issue of Chinese steel overcapacity 
and how will you work with our allies to combat this global issue?

    How do you plan to address Japan's significantly closed market for 
U.S. automakers?

    With respect to the recent announcement that the United States and 
South Korea will amend the 2012 U.S.-Korea Free Trade Agreement, how 
will you work to secure policy reforms that open South Korea's market 
to U.S. automakers, and what are your main priorities for amending this 
agreement?

    Answer. With regard to your questions about China, we have numerous 
trade issues with China, but there are some issues that stand out, 
including all of those you identified. China has begun to pursue a 
range of industrial policies, such as Made in China 2025, designed to 
create or accelerate artificially China's ability to become a 
manufacturing leader in several high technology, high value-added 
industries, like information technology, aviation, electric vehicles, 
and medical devices. China's policies provide preferences to Chinese 
technology and products and seek to acquire advanced technologies from 
other countries, often through unfair means. We need to protect our 
technology and ensure a level playing field and an open market in 
China. Intellectual property rights protection in China, of course, is 
another area of serious concern. I am committed to the appropriate use 
of the full range of U.S. trade policy and enforcement tools to ensure 
progress in all of these areas. If confirmed, I look forward to working 
with you on these matters.

    With regard to the issue of steel, China needs to fix its unfair 
trade practices and its vast excess capacity problem. I understand that 
USTR is currently conducting a review of all the available tools to 
address the serious overcapacity problems in steel and other products. 
At the same time, we need to address the root causes of those problems, 
and as part of that effort I understand that USTR is continuing to work 
closely with other leading steel producing countries in the Global 
Forum on Steel Excess Capacity and other contexts. The goal of the 
Global Forum is to work with other governments to take effective steps 
to address excess steel capacity in China and elsewhere by addressing 
the underlying causes such as government subsidies and other government 
assistance.

    I believe USTR is also working with the Department of Commerce, 
Customs and Border Protection, and other agencies to ensure that we 
enforce our trade remedy laws and measures effectively at the U.S. 
border. In addition, as you know, the Department of Commerce is 
conducting an investigation of steel trade pursuant to section 232 of 
the Trade Expansion Act of 1962.

    Question. I have serious concerns about China's effort to attain 
market economy status at the WTO. The European Union recently announced 
that unless there are ``significant market distortions'' they will 
treat all WTO members the same with regard to dumping determinations.

    How do you see this policy change affecting the debate on China's 
market economy status within the WTO?

    How will you work to ensure that China continues to be treated as a 
non-market economy?

    Answer. In my view, China is not a market economy and is not 
entitled to market economy status. It would make no sense to treat such 
a distorted economy the same as a market economy. Ambassador Lighthizer 
has been clear that USTR will vigorously defend our right under WTO 
rules to use a non-market economy methodology for antidumping 
investigations. If confirmed, I will support those efforts to work 
together with our partners and allies around the globe to defend our 
rights under the WTO.

    Question. Currency manipulation is one of the most egregious 21st-
century trade barriers and has led to the loss of millions of jobs in 
our country, including in Michigan.

    Do you support including strong, enforceable currency provisions in 
future trade agreements?

    Do you support including currency provisions in NAFTA?

    How will you respond when countries like China and Japan are found 
to manipulate their currencies?

    Answer. Currency manipulation is an issue on which the 
administration is focused. The Trump administration is examining the 
full array of policy tools available to combat currency manipulation, 
including enforceable trade commitments. If confirmed, I will work with 
you and other members of Congress, as well as with other administration 
officials, to develop an effective approach for addressing this 
problem.

    Question. Geographical indication (GI) restrictions for food names 
have been a persistent challenge with the EU. Just this week, the EU 
approved a Geographical Indication for a term that has long had a Codex 
product standard.

    Do you agree that Codex product standards represent common names? 
If you are confirmed, will you prioritize addressing the EU's attempts 
to restrict U.S. exports through the use of GIs?

    Answer. I recognize that geographical indications (GIs) reduce 
market access for many U.S. food exports. If confirmed, I will raise 
strong concerns regarding the impact of the EU's GI policies on market 
access for U.S. owners of trademarks and U.S. producers and traders 
using common food names.

    Question. Will you take action to defend U.S. products against non-
tariff trade barriers that conflict with science-based standards?

    Answer. If confirmed, I will use all tools available to reduce and 
prevent barriers to U.S. exports arising from regulations of our 
trading partners that are insufficiently grounded in science and risk. 
Often such regulations harm agricultural production, food security, and 
trade without providing meaningful benefits to public health or the 
environment.

                                 ______
                                 
               Question Submitted by Hon. Maria Cantwell
    Question. According to media reports, President Trump is conducting 
a comprehensive review of U.S. policy toward China. One issue I'd like 
to highlight is cloud computing. China has placed many limits on cloud 
computing services in China. It has made it very difficult for U.S. 
companies to operate and put them at a clear competitive disadvantage 
to local Chinese companies. This is unfortunate because China is a 
tremendous market and should present great opportunities for U.S. 
companies. The Chinese market for cloud services may reach $20 billion 
by 2020 according to some estimates.

    What will the administration do to address this problem?

    Answer. I recognize that U.S. leadership in the technology sector, 
including in the area of cloud computing, is one of our great national 
strengths and a source of our international competitiveness. I agree 
that our trade policy should work to ensure that U.S. companies in this 
sector can thrive globally, including in China, where I recognize that 
barriers have been severe and contrast sharply with the open market in 
the United States. If confirmed, I will make seeking progress in 
reducing barriers to U.S. companies in this sector--including in the 
China market--a priority.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. We've heard from the President and others that one of the 
administration's main goals in trade negotiations should be to reduce 
our bilateral trade deficit.

    Do you agree that this should be USTR's main priority?

    What do you think has been the administration's biggest 
accomplishment in reducing our trade deficit with China, and what 
impact, in dollar terms, have those actions had on our trade deficit 
with China?

    What future action can we expect from the administration to address 
our trade deficit with China?

    Answer. The President's and USTR's main priority is to implement a 
trade policy that benefits America's workers, farmers, ranchers, and 
businessmen. The trade deficit is indeed a concern in that it 
represents structural problems in global trade. USTR believes that as 
markets become fairer and trade becomes freer, U.S. companies and 
workers will be more competitive and our trade deficits will decline.

    Concerning China, the administration has been working on a number 
of fronts--pushing China to open markets and increasing U.S. exports, 
as well as initiating enforcement actions, including a Section 301 
investigation on forced tech transfer, to make sure that China plays by 
the rules.

    The President has made clear that we need to restore balance to the 
U.S.-China trade relationship, and that means reducing our very large 
bilateral trade deficit and ensuring that trade is freer, fairer, and 
balanced for America. At nearly $350 billion last year, it is by far 
the largest trade deficit that we have with any country. We are 
focusing our efforts on removing trade barriers and eliminating unfair 
trade practices that contribute to the trade deficit.

    Question. China has had a decades-long pattern of manipulating 
their currency, stealing our intellectual property, dumping products 
onto world markets, and systematically skirting their trade 
obligations. Leveling the playing field for American workers by taking 
aggressive action to stop China from gaming the international trading 
regime was a key theme of the President's campaign, and I hope the 
administration will follow through on that promise.

    Do you believe that China is a currency manipulator?

    If confirmed, what are you going to do to ensure that countries 
stop manipulating their currency?

    Is the administration going to continue the bilateral investment 
treaty negotiations with China? Will you pursue another type of trade 
agreement with China?

    Answer. With regard to your questions about currency, currency 
manipulation is an issue on which President Trump campaigned, and he 
and his administration remain focused on. It is my understanding that 
the administration is examining the full array of policy tools 
available to combat currency manipulation, including trade commitments.

    With regard to your question about bilateral investment treaties 
and other agreements, it is my understanding that the administration is 
reviewing trade agreements and negotiations to determine where U.S. 
interests can be advanced.

    Question. We have seen a disturbing trend in recent years whereby 
some of our trading partners have ignored their international 
commitments, particularly with respect to intellectual property 
protection, either by failing to fully implement agreements or by 
flouting the rules in order to give their businesses an unfair 
advantage. These decisions are short-sighted and ultimately discourage 
innovation, investment and job growth.

    What do you believe USTR should be doing to ensure our trading 
partners are enforcing existing commitments and deter countries from 
weakening such standards in their own IP regimes?

    Answer. I agree that we need to do more to enforce the IPR 
provisions of our trade agreements. If confirmed, I will seek to use 
all appropriate trade tools to ensure that U.S. rights holders have a 
full and fair opportunity to use and profit from their intellectual 
property rights. Ensuring strong intellectual property protection and 
enforcement by our trading partners will be a top trade priority.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. Will you commit to making trade enforcement against 
China's unfair trade practices a top priority of your tenure at USTR? 
If so, what specific enforcement efforts against China will you commit 
to considering if confirmed?

    Answer. I intend to focus my efforts on removing trade barriers and 
eliminating unfair trade practices that contribute to the trade 
deficit. If I am confirmed, I will look at how I can best work to 
ensure that our engagement with China is effective and results-
oriented, which will include robust enforcement. I am committed to the 
appropriate use of the full range of U.S. trade policy and enforcement 
tools including WTO dispute settlement and U.S. law to ensure progress 
across the range of China's unfair trade practices. If confirmed, I 
look forward to working with you on this issue.

    Question. If confirmed, what steps would you take to increase 
China's compliance with its WTO obligations?

    Answer. If I am confirmed, I will look at how I can best work to 
ensure China's compliance with its WTO obligations. I am committed to 
the appropriate use of the full range of U.S. trade policy and 
enforcement tools, including WTO dispute settlement, to ensure progress 
across the range of China's unfair trade practices. If confirmed, I 
look forward to working with you on this issue.

    Question. Do you agree that we should place a permanent freeze on 
the Bilateral Investment Treaty talks with China until they fully 
comply with all of their existing trade obligations with the United 
States?

    Answer. If confirmed, I would place a high priority on utilizing a 
broad range of tools to ensure that China treats the United States, 
U.S. exports and U.S. companies fairly with respect to trade and 
investment. As far as the BIT, I understand that it is not under active 
negotiation right now, and I would take Chinese practices into account 
before making any recommendation to move forward.

    Question. Do you believe the Trans-Pacific Partnership text should 
be used as the basis for future U.S. trade agreements, including the 
NAFTA renegotiation?

    Answer. It is my understanding that, in formulating trade policy, 
the administration is looking at all precedents and seeking 
improvements that best serve the interests of American workers, 
manufacturers, farmers and ranchers. With respect to the NAFTA 
specifically, I understand USTR is guided by the objectives included in 
TPA, as well as its extensive consultations with the Congress, and 
industry and civil society stakeholders. While, if confirmed, my 
portfolio would not include geographic responsibility for the Western 
Hemisphere and NAFTA, I will continue to work with you and other 
members of Congress to ensure that future trade agreements meet TPA 
objectives.

    Question. Do you agree that our trading partners' weaker 
environmental and labor standards undermine U.S. industrial 
competitiveness? If so, what steps will you take to strengthen our 
trading partners' environmental and labor standards, and, therefore, 
U.S. industrial competitiveness, if confirmed?

    Answer. Labor and Environment protections are important negotiating 
objectives that Congress has set out in TPA. If confirmed, I look 
forward to consulting closely with you and other members of Congress 
with an interest in using our trade agreements and enforcement efforts 
to promote high-standard protections for workers and the environment to 
ensure a level playing field for American workers and businesses 
consistent with TPA objectives.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. Mr. Gerrish, did you look into registering to vote in 
Maryland, or was it always your intention to vote in the State of the 
Virginia for the general election?

    Answer. I did not look into registering to vote in Maryland. I 
believed that I still had more time under the grace period to vote in 
Virginia and voted there pursuant to that belief.

    Question. Mr. Gerrish, did you hold a valid Maryland ID at the time 
of the 2016 election?

    Answer. I did not hold a valid Maryland ID at the time of the 2016 
election.

    Question. Mr. Gerrish, you mentioned in your testimony you had paid 
property taxes in Virginia. In which State were you paying property 
taxes in November 2016?

    Answer. As I mentioned in my testimony, I was responsible for 
paying personal property taxes in Virginia in November 2016. The 
personal property taxes were owed on my vehicle. I also was paying 
property taxes on my home in Maryland in November 2016.

    Question. Mr. Gerrish, is the address on your Virginia driver's 
license, which you presented to election officials for the November 
2016 election, the same as your residence in Virginia under which you 
were registered?

    Answer. The address on my Virginia driver's license was the same as 
the address under which I was registered.

    Question. Mr. Gerrish, do you agree that adopting or maintaining 
lax labor and environmental standards is not a legitimate way for 
governments to manufacture a competitive advantage for their exporters?

    Answer. Labor and Environment protections are important negotiating 
objectives that Congress has set out in TPA. If confirmed, I look 
forward to consulting closely with you and other members of Congress 
with an interest in using our trade agreements and enforcement efforts 
to promote high-standard protections for workers and the environment to 
ensure a level playing field for American workers and businesses 
consistent with TPA objectives.

    Question. Mr. Gerrish, please discuss your experience as it relates 
to intellectual property rights and intellectual property theft. How 
will that experience inform your work in ensuring U.S. IP is protected 
and what you will prioritize in this space? Please discuss what steps 
do you intend to build on, and initiate, to protect U.S. intellectual 
property from both coercive appropriation, and conventional and cyber-
enabled economic espionage?

    Answer. As a member of the private bar, I've been fortunate to 
provide legal advice on a wide-range of trade matters and disputes, in 
domestic and international forums. As a result, I am under no illusions 
as to the challenges confronting U.S. companies in protecting 
themselves from coercive and otherwise unfair practices, including as 
to their critical investments in intellectual property. Drawing on this 
experience, I share the administration's intention to use all possible 
sources of leverage to encourage trading partners to open their markets 
to U.S. exports of goods and services and provide adequate and 
effective protection of U.S. intellectual property rights. If 
confirmed, I look forward to working with you in pursuit of these 
important objectives.

    Question. According to the American Iron and Steel Institute, the 
steel industry employs about 19,000 people in Pennsylvania, and is one 
of Pennsylvania's biggest economic drivers.\1\ The steel and aluminum 
industries are facing a crisis because of global overcapacity, stemming 
from China. This issue is exacerbated by the administration's failure 
to act on its Section 232 steel investigation. Delay has resulted in a 
sustained increase in imports of steel to the United States compared to 
last year.
---------------------------------------------------------------------------
    \1\ https://www.steel.org//media/Files/AISI/Public%20Policy/
Member%20Map/2016/Pennsylvania.pdf?la=en.

    Can you share what actions you intend to take to press China and 
---------------------------------------------------------------------------
other countries on overcapacity?

    Please discuss how you will work with our allies, including the EU, 
on taking collective action on this issue.

    Answer. The current global overcapacity situation in the steel and 
aluminum industry is having a detrimental impact on U.S. workers and 
industries. At the core of this issue is China's non-market economy 
system, which is creating global oversupply and excess capacity in 
these and other sectors.

    To address this serious problem, I understand that the 
administration is working to address both the root causes and 
manifestations of the problem and is evaluating every appropriate tool 
in our arsenal. I would want to work closely with other countries in 
the Global Steel Forum and other fora. If confirmed, I would also look 
to WTO enforcement mechanisms and U.S. law as avenues to address unfair 
advantages arising from this situation.

    Regarding Commerce's investigations on steel and aluminum imports 
under section 232 of the Trade Expansion Act of 1962, I understand that 
Commerce has 270 days to deliver its report and any recommendations to 
the President. I cannot engage in speculation about the potential 
impact that decisions on timing of these investigations may have on 
U.S. domestic stakeholders, as Commerce has not yet concluded its 
investigations.

    Question. With respect to uncompetitive market concentration of 
products or production, please discuss how you hope to work with the 
Department of Justice's antitrust division to evaluate the impact on 
prices in the United States, and where appropriate, develop remedies.

    Answer. USTR and the U.S. Department of Justice work closely across 
a broad array of areas related to competition law and the anti-
competitive effects in the U.S. market. If confirmed, I will examine 
this issue closely and advise the Ambassador on potential relevant next 
steps.

    Question. Do you intend to recommend the USTR self-initiate trade 
cases when the situation calls for it? If so, do you believe the 
current funding and staffing levels at USTR are sufficient to execute 
this agenda?

    Answer. I believe it is appropriate to self-initiate cases. We will 
use all of the resources at our disposal to do this when there is a 
suitable case.

    Question. Do you support the inclusion of Investor State Dispute 
Settlement (ISDS) in its current form in future trade agreements?

    Answer. The United States has an open and fair judicial system, and 
we should be skeptical about subjecting U.S. laws and regulations to 
private arbitration. Moreover, I believe that our trade agreements 
should be drafted to avoid off-shoring U.S. jobs. Any provisions on 
ISDS should take those considerations into full account.

    Question. How would you amend ISDS to ensure no special legal 
protection is afforded to offshoring jobs?

    Answer. The United States has an open and fair judicial system, and 
we should be skeptical about subjecting U.S. laws and regulations to 
private arbitration. Moreover, I believe that our trade agreements 
should be drafted to avoid off-shoring U.S. jobs. Any provisions on 
ISDS should take those considerations into full account.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to 
consider the nominations of Jeffery Gerrish to serve as Deputy United 
States Trade Representative, Gregory Doud to serve a Chief Agricultural 
Negotiator at the Office of the U.S. Trade Representative, and Jason 
Kearns to serve as a member of the International Trade Commission 
(ITC).

    When you look over the respective resumes of each of these 
nominees, it's clear that the President has selected individuals who 
are well-qualified and well-prepared to serve in these important posts. 
That's a good thing.

    There's quite a bit going on in the trade world at the moment. The 
Trump administration has a number of ambitious goals and Congress has a 
key role to play with all of them. Among other things, we need to make 
sure the administration is well-staffed, and I hope we'll be able to 
take some steps toward that end with the advancement of these nominees.

    I'd prefer to let the nominees describe their backgrounds and 
qualifications on their own. However, I do want to address an issue 
that has been raised with respect to Mr. Gerrish's nomination.

    Members of the committee already have all of the facts, and they 
are pretty straightforward.

    Mr. Gerrish was a resident of Virginia until June 2016, at which 
time he moved to Maryland. However, in November 2016, Mr. Gerrish voted 
in the general election in the Commonwealth of Virginia.

    Mr. Gerrish voted where he shouldn't have. It's that simple.

    He has been open with the committee about this matter during the 
vetting process and has cooperated with committee staff's efforts to 
understand exactly what happened. I am sure that Mr. Gerrish will be 
willing to respond to questions about this matter today.

    My hope is that, at the end of today's hearing, committee members 
will have enough information to judge each nominee on the basis of 
their experience, knowledge, and qualifications for the position to 
which they have been nominated.

    With that out of the way, I want to once again thank the nominees 
for being here today. I look forward to hearing your statements and, 
hopefully, to working with you in the future.

                                 ______
                                 
  Prepared Statement of Jason Kearns, Nominated to be a Member of the 
              United States International Trade Commission
    Chairman Hatch, Ranking Member Wyden, members of the Finance 
Committee, I am honored to appear before you today as the President's 
nominee for the position of Commissioner on the U.S. International 
Trade Commission.

    I would like to introduce the members of my family who are with me 
here today. I wouldn't be here without the love and constant support of 
my wife, Lindy Arnof Kearns, who manages the logistical mess of our 
busy lives while adding levity to our home. I am also very proud of my 
three children, Eleanore (14), Keevan (12), and Sander (9), who help me 
keep things in perspective. My mother, Betsy Starks, has taught me to 
stand up for my principles and to stick to them. And I'm proud of my 
sister, Lauren Sulcove, who serves as First Assistant District Attorney 
in Franklin County, PA.

    I would like to thank all of my family, those who are living and 
those who have passed, for all of their support over the years. I also 
thank my mentors, colleagues, and friends for their help.

    I seek this position after serving the past 11 years as trade 
counsel to the House Committee on Ways and Means. I want to thank Ways 
and Means for that honor. I also want to express my appreciation to 
Representatives Levin and Rangel, and Senator Wyden, for first 
recommending my appointment as a Commissioner several years ago, and to 
Presidents Obama and Trump for nominating me.

    I am also grateful to Senate Minority Leader Schumer for his 
support, as well as the support I have received from this committee, 
including the chairman, the ranking member, and Senator Bennet from my 
great home State of Colorado.

    The ITC administers the trade remedy laws--or, as Senator Isakson 
so aptly put it in our meeting last week, it serves as an ``umpire,'' 
calling balls and strikes. The ITC also provides Congress and the 
executive branch with independent analysis and information on matters 
relating to tariffs and international trade, that is, raw materials 
from which policy makers may craft and execute trade policy.

    In my view, the work of the ITC may be more important today than 
ever before, as trade has become a much larger part of our economy, and 
as policymakers consider and debate trade policy reforms.

    I believe my upbringing, education, and work experience have 
prepared me well for this role. I grew up in a farming town of 500 
people in Colorado, where I learned to enjoy hard work, whether it was 
the midnight feedings of my 4-H lambs or being the first kid at my high 
school in the morning to work on my jump shot. In small towns, you 
learn to do your part, and you learn to try to get along. And that's 
where I developed a deep respect for people who work with their hands 
for a living.

    Since moving away from that small town, I have learned about trade 
from a wide variety of perspectives, over more than 20 years. I have 
counseled Democratic members of Congress, as well as Republican trade 
officials at USTR, including my former boss, Senator Portman. Before 
that, in private practice, I counseled businesses that petitioned the 
ITC for relief under the trade remedy laws, as well as businesses that 
opposed relief. I have counseled exporters as well as importers.

    I have been honored to serve as an advocate for these clients. I 
now look forward to serving in a different role--not as an advocate, 
but as an impartial, independent, and objective decision maker and 
source of information and analysis.

    If confirmed, I will administer the trade remedy laws fairly, 
objectively, and in accordance with congressional intent. And I will 
work with my fellow Commissioners to respond as fully and quickly as 
possible to congressional and administration requests with the most 
reliable information and independent and insightful analysis possible.

    Thank you for your consideration.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Jason Edward Kearns.

 2.  Position to which nominated: Commissioner, U.S. International 
Trade Commission.

 3.  Date of nomination: January 17, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: March 19, 1971; Denver, CO.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        Weld Central High School (Keenesburg, CO), 1985-1989; high 
        school diploma 1989.

        University of Pennsylvania, 1989; no degre--transferred.

        University of Denver, 1990-1993; BA 1993.

        University of Pennsylvania, 1993-96; JD 1996.

        Harvard University, Kennedy School of Government (Harvard 
        Kennedy School), 1998-2000; MPP 2000.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Chief International Trade Counsel (2012-Present) and 
        International Trade Counsel (2006-2012); Democratic Staff, 
        Committee on Ways and Means, U.S. House of Representatives, 
        Washington, DC 2006-2012.

        Associate/Assistant General Counsel, Office of the U.S. Trade 
        Representative, Executive Office of the President, Washington, 
        DC 2003-2006.

        Associate/Counsel, WilmerHale (formerly Wilmer, Cutler, and 
        Pickering), Washington, DC 2000-2003.

        Intern, Appellate Body, World Trade Organization, Geneva, 
        Switzerland, summer 2000.

        Intern, Office of the U.S. Trade Representative, Washington, 
        DC, summer 1999.

        Associate, Mayer Brown, Chicago, IL and Bishkek, Kyrgyz 
        Republic, 1996-98.

        Summer Associate, Mayer Brown, Chicago, IL, summer 1995.

        Intern, U.S. District Court, Denver, CO, summer 1994.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
government, other than those listed above):

        None, other than those listed above.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, farm, partnership, other 
business enterprise, or educational or other institution):

        At law firms (WilmerHale and Mayer Brown), I served as attorney 
        (agent/consultant) to many client businesses. I do not have a 
        record of the clients I served.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        Advisory board member, University of Denver, division of Arts, 
        Humanities, and Social Sciences.

        Member of the District of Columbia bar.

        Former member of the Illinois bar.

        Member of the Chi Phi fraternity (University of Denver, Mu Zeta 
        chapter).

        Member of the Phi Beta Kappa society.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       Volunteer, Barack Obama presidential campaign, 2008.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       Obama for America, June 2008, $1,000.

       Obama for America, September 2008, $500.

       Obama for America, October 2008, $250.

       DCCC, October 2010, $200.

       Obama Victory Fund, June 2012, $500.

       Hillary for America, September 2015, $100.

       Hillary for America, November 2015, $500.

       Hillary Victory Fund, August 2016, $500.

       ActBlue, DCCC-House Dems, August 2016, $300.

       Hillary Victory Fund, September 2016, $200.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        2013, University of Denver masters program scholar award, arts, 
        humanities, and social sciences.

        Graduated University of Pennsylvania law school, cum laude, 
        1996.

        Graduated University of Denver, BA, summa cum laude, 1993.

        University of Denver honors scholarship, 1990-1993.

        Phi Beta Kappa honorary society, 1992.

        Dobro Slovo, Russian honorary society, 1993.

        University of Denver, economics department student of the year, 
        1993.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        ``The United States-Morocco Free Trade Agreement,'' in 
        Bilateral and Regional Free Trade Agreements, Vol. 2, pp. 144-
        191, S. Lester and B. Mercurio, eds., Cambridge University 
        Press, 2009.

        ``Moving Forward: A New, Bipartisan Trade Policy That Reflect 
        American Values,'' on behalf of Charles B. Rangel, chairman of 
        the Committee on Ways and Means, 45(2) Harvard Journal on 
        Legislation 377 (2008).

        ``Adjudicating Compliance in the WTO: A Review of DSU Article 
        21.5,'' with Steve Charnovitz, 5(2) Journal of International 
        Economic Law 331 (2002), Oxford University Press.

        ``International Competition Policy and the GATS: A Proposal to 
        Address Market Access Limitations in the Distribution Services 
        Sector,'' 22 University of Pennsylvania Journal of 
        International Econonic Law 285 (2001).

16.  Speeches (list all former speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        I regularly meet with groups to discuss international trade 
        issues in my current job. But I have not delivered or prepared 
        formal speeches. When I speak to groups, my comments are almost 
        always off the record. The only exception I can think of is 
        when I spoke at the Cato Institute. There is no written record 
        of that discussion. The video is here:

        http://www.cato.org/events/trans-pacific-partnership-race-
        finish-or-long-slog-ahead.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I believe my education and experience in international trade 
        law and policy (particularly as an attorney in trade remedy 
        proceedings before the ITC and other agencies and courts, as an 
        attorney in the Office of the General Counsel within the Office 
        of USTR, and as Chief International Trade Counsel to the 
        Committee on Ways and Means) qualify me to serve as a 
        Commissioner on the U.S. International Trade Commission.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes, I will sever all connections with my present employer, and 
        any other significant connections that would create a conflict 
        of interest or an appearance of one.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No. I have committed to serve on the University of Denver 
        advisory board for Arts, Humanities, and Social Sciences. My 
        work with that board is not compensated and, in my view, 
        creates no conflict with my work as an ITC Commissioner. But, 
        if deemed necessary by the Senate Finance Committee, I would 
        sever that relationship.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        The Office of Government Ethics and the International Trade 
        Commission have identified a number of assets (Qualcomm, Cisco 
        Systems, Intel Corp., Apple, Inc., Alphabet Inc., Nucor Corp., 
        Baxter International, General Electric, Home Depot, Oracle, NXP 
        Semiconductors, Precision Castparts, Nike, Exxon Mobil, and 
        Berkshire Hathaway) that create potential conflicts of 
        interest. I have agreed in writing that, within 3 months of my 
        confirmation, I will divest my interests in those entities.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        None. For the past 10 years, I have worked in the House of 
        Representatives, which ITC staff sometimes refers to as a 
        ``customer'' or ``client'' of the ITC.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

        None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        I would either sever my relationship or investment interest 
        that creates the conflict, or would recuse myself from any 
        matter involving the conflict.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before my court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        I have no further information.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes, I am willing to comply with any reasonable request by any 
        committee.

                                 ______
                                 
           Questions Submitted for the Record to Jason Kearns
                  Question Submitted by Hon. Ron Wyden
    Question. In 2015, Congress amended the definition of material 
injury and the factors the ITC examines in evaluating injury to 
prohibit the ITC from finding that there has been no injury ``merely 
because that industry is profitable or because the performance of that 
industry has recently improved.'' For a range of industries--including 
softwood lumber, solar, and steel producers--profitability or other 
positive performance indicators may mask harms from unfair trade that 
have profound consequences for companies' ability to compete. For 
example, a company that is unable to make long-term capital 
improvements due to unfairly priced imports should not be denied relief 
merely because it is profitable.

    Do you agree that a domestic industry may suffer material injury 
from dumped and subsidized imports even though it manages to remain 
profitable or its performance has improved? Do you agree that there are 
circumstances in which the Commission could find material injury where 
an industry would have done better, but for dumped and subsidized 
imports?

    Answer. I am aware that 19 U.S.C. 1677(7)(J), which was added to 
the statute in 2015, states that the Commission may not make a negative 
determination merely because the domestic industry is profitable or 
because its performance has recently improved. If confirmed, I commit 
to strictly enforcing the statute and to consider all the relevant 
statutory factors when making determinations in antidumping and 
countervailing duty investigations.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. Michigan is home to the cherry capital of the world, but 
a flood of cheap imports of tart cherry juice concentrate from Turkey, 
Poland, and Hungary is threatening to put U.S. cherry producers out of 
business.

    If confirmed, will you look into this matter and consider self-
initiating a section 332 investigation into market conditions for U.S. 
tart cherry juice concentrate and imports from Turkey, Poland, and 
Hungary?

    Similarly, Michigan asparagus growers have been struggling with 
dumping from Mexico and Peru for several years.

    If confirmed, will you look into this matter and consider self-
initiating a section 332 investigation into market conditions for U.S. 
asparagus and imports from Mexico and Peru?

    Answer. I have discussed with Commission staff your concerns with 
imports of tart cherry juice concentrate and asparagus, and the impact 
those imports have on U.S. cherry and asparagus producers. Your 
concerns, and the recent growth of imports of these products, are known 
to analysts at the Commission. And, in the past, the Commission has 
provided trade data to members of Congress upon request. If confirmed, 
I will work to ensure that Commission staff continue to respond to 
requests for trade data from Congress.

    In addition to such assistance, section 332 of the Tariff Act of 
1930 requires the Commission to initiate investigations and issue 
reports when requested to do so by the President of the United States, 
the Committee on Ways and Means of the House of Representatives, the 
Committee on Finance of the Senate, or by either branch of the 
Congress. Recent examples of investigations covering global 
agricultural competitiveness include, ``Rice: Global Competitiveness of 
the U.S. Industry, Investigation No. 332-549, USITC Publication 4530, 
April 2015,'' and ``Olive Oil: Conditions of Competition between U.S. 
and Major Foreign Supplier Industries Investigation No. 332-537, USITC 
Publication 4419, August 2013.'' The House Committee on Ways and Means 
requested both of these investigations. Were the Commission to receive 
such a request regarding cherries or asparagus, if confirmed as a 
Commissioner, I would work with my fellow Commissioners and USITC staff 
to ensure that the Commission provides a thoughtful and robust report 
that is timely and responsive.

    Finally, as you know, the Commission also has the authority to 
self-initiate investigations under section 332. Given its budget and 
resource constraints, and the fact that the Committees and USTR are in 
the best position to determine the information and advice that they 
need to develop policy, the Commission has rarely exercised this 
authority. If confirmed, I will work with my fellow Commissioners and 
USITC staff to ensure that the Commission exercises this authority 
appropriately.

                                 ______
                                 
               Question Submitted by Hon. Robert Menendez
    Question. Thank you for your answer to my question at the hearing 
regarding ITC consideration of end user submissions.

    To follow up on that discussion, if purchasers and end users tell 
the ITC that the U.S.-produced product is very different than the 
imported product, but U.S. producers argue that they are the same, how 
does the Commission reconcile those two views?

    Answer. This is one of several issues on which the Commission 
collects information during the course of an antidumping or 
countervailing duty investigation. The record that the Commission will 
compile includes questionnaire responses from marketplace participants 
such as U.S. producers, importers, and purchasers; written submissions 
by parties, which will typically include U.S. producers, importers, 
purchasers, and exporters; and hearing and conference testimony. As a 
Commissioner, I will carefully consider all information in the record 
before making any factual findings on disputed issues.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. My legislation, the Leveling the Playing Field Act, 
became law in 2015--thanks to the support of Ranking Member Wyden, 
Chairman Hatch, Senator Portman, and many others on the Senate Finance 
Committee. Congress passed the Leveling the Playing Field Act to make 
sure U.S. trade remedy laws continue to provide meaningful relief for 
U.S. companies and workers that are injured by unfair trade practices. 
Oftentimes our trade remedy laws are the only way American companies 
and workers can get any relief from trade cheats. As a Commissioner on 
the ITC, you will be responsible for implementing the Leveling the 
Playing Field Act.

    Will you commit, if confirmed, to fully enforcing that law, and all 
of title 7, as Congress intended?

    Answer. Yes. If confirmed, I commit to strictly and fully enforcing 
all provisions of title VII, including the Leveling the Playing Field 
Act, consistent with the statutory language and expressed congressional 
intent. These laws provide a vital tool for U.S. companies that are 
faced with unfair import competition, and the ITC's decisions can 
impact the livelihoods of workers, farmers, and businesses across 
America. The ITC is charged with the responsibility of conducting trade 
remedy investigations and making determinations based on the facts in 
the record of the investigation and the law as enacted by Congress. In 
making determinations under these laws, I can assure you that I will 
make my determinations independently and objectively based on the facts 
in the record and the applicable law.

    Question. Specifically, do you agree that it is possible for a 
domestic industry to suffer material injury from dumped or subsidized 
imports even if its profits have grown or its market performance has 
improved?

    Answer. Yes. I am aware that 19 U.S.C. 1677(7)(J), which was added 
to the statute by the Leveling the Playing Field Act, states that the 
Commission may not make a negative determination merely because the 
domestic industry is profitable or because its performance has recently 
improved. If confirmed, I commit to strictly enforcing the statute and 
consider all the relevant statutory factors when making determinations 
in antidumping and countervailing duty investigations.

    Question. Foreign producers can undermine the effectiveness of U.S. 
trade remedy laws by exporting large volumes of product into the U.S. 
before a preliminary determination in a trade remedy case is issued. Do 
you believe existing U.S. trade remedy laws and ITC methodologies 
adequately address these duty evasion tactics?

    Answer. I am aware that the statute provides a mechanism permitting 
the Department of Commerce to issue retroactive antidumping or 
countervailing duties when there have been massive imports of 
merchandise over a relatively short period, such as prior to issuance 
of its preliminary determination, and the Commission makes a finding 
that these imports are likely to undermine seriously the remedial 
effect of any antidumping or countervailing duty order. If confirmed, I 
commit to fully enforce these provisions on critical circumstances, as 
well as all provisions of title VII.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    Today, the committee is considering the nominations of three 
nominees for critical trade positions: Mr. Jeffrey Gerrish to be deputy 
United States trade representative, Mr. Gregory Doud to be chief 
agricultural negotiator at USTR, and Mr. Jason Kearns to be a member of 
the United States International Trade Commission.

    I want to start with a serious matter with respect to Mr. Gerrish's 
nomination. As I understand the facts, Mr. Gerrish moved residences 
from Virginia to Maryland in June of last year. Though he no longer 
lived in Virginia, he voted there in the 2016 general election. 
Virginia provides a 30-day grace period to former residents. This was 
way outside what the law allows. Now, I have a hard time understanding 
how an attorney as accomplished as Mr. Gerrish can walk out of his 
house in Maryland, travel all the way to Virginia and cast his vote in 
that State without thinking there may be an issue. You obviously can't 
flash a Maryland driver's license when a Virginia polling place worker 
asks where you live. This seems to me to be a serious error in 
judgement on a part of the law that's pretty unambiguous. As of now, 
it's especially noteworthy that the Republican and the Democratic 
member of the Fairfax County Electoral Board have called for an 
investigation by the prosecutor in this case. The issues a deputy USTR 
has to deal with on a daily basis are a lot more complicated than 
voting.

    And there's another reason why this issue just takes my breath 
away. This administration has fabricated out of thin air a crisis of 
widespread voter fraud in this country without one shred of evidence to 
back up their claims. They've launched a so-called Commission on 
Election Integrity, which looks a lot to me like an attempt to justify 
taking the vote away from millions of American citizens, particularly 
black and Latino citizens. Bottom line, the administration makes 
illegal voting out to be widespread and far reaching, almost an 
existential threat to the country, and here they are nominating someone 
who appears to have cast an illegal vote in a highly contested State.

    I would say it boggles the mind, but the fact is, there's hypocrisy 
as far as the eye can see in this administration. They're all about 
belt tightening and budget cuts, but every day there's a new story 
about a cabinet official or aide jetting around the country in a cushy 
private plane. Senior White House officials have reportedly used 
private emails hosted on private servers for official business. It 
sounds like the head of the EPA doesn't eat a meal or take a meeting 
unless it's with some industry insider right out of the swamp. With all 
that, perhaps it should be no surprise that the Trump team is willing 
to look the other way on illegal voting when it comes to their own 
nominee.

    Turning to the critical trade challenges that are facing us today, 
after hearing a lot of tough talk on trade, the administration has 
disappointed. In April the President ordered the launch of 
investigations into steel and aluminum imports. He called it an 
historic day, but so far, it's been an historic blunder.

    Failing to follow through on this tough talk has led to steel 
imports jumping by 21 percent. You're seeing the same pattern in 
softwood lumber after the administration delayed imposing duties on 
unfairly traded imports from Canada. This is having a real impact on 
the United States and red-white-and-blue jobs. By the President's own 
preferred metric--the trade deficit--the United States is worse off 
this year. The deficit rose by about 28 billion dollars in the first 7 
months of 2017.

    This administration has also produced disappointing results in its 
engagement with China. Although administration officials touted a 
limited deal with China in late spring, labeling something a good deal 
is very different from actually getting a good deal. The United States 
has serious and far-reaching trade issues with China, including with 
respect to cloud computing, and again, what's needed isn't more talk. 
What's needed is a concrete strategy.

    I also have concerns about where the NAFTA renegotiations are 
heading. As I'm sure Mr. Doud can attest, trade is complicated. 
Entering into trade agreements may create winners and losers, but so 
does withdrawing from them, or fundamentally changing their nature. 
There are lots of farm and manufacturing jobs that depend on existing 
relationships, and the goal should be to improve those relationships 
for everyone. It'd be a big mistake to leave whole sectors of our 
economy behind.

    I worry that this is a trade policy built on hostage-taking and 
headlines, not the hard work of getting trade done right through tough 
enforcement and a comprehensive strategy to open up markets for the 
American-made brand.

    Finally, Mr. Jason Kearns has been nominated to serve on the 
International Trade Commission. Those of us who've had the opportunity 
to work with Mr. Kearns here on Capitol Hill know that he understands 
the ins and outs of this country's trade policy as well as anybody. I'm 
confident that he's committed to policies that pay off for American 
workers and communities, so I look forward to supporting his 
nomination.

                             [all]
                             
                             
</pre></body></html>
